<html>
<title> - RIGHTING THE SHIP: THE COAST GUARD MUST IMPROVE ITS PROCESSES FOR ADDRESSING HARASSING, BULLYING, AND RETALIATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                RIGHTING THE SHIP: THE COAST GUARD MUST
                IMPROVE ITS PROCESSES FOR ADDRESSING
                  HARASSING, BULLYING, AND RETALIATION

=======================================================================

                              JOINT HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                          [Serial No. 116-78]

                                AND THE

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY

                          [Serial No. 116-53]

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2019

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov
                           oversight.house.gov
                             docs.house.gov
                             
                                __________
                                  

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-243 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             

                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                     Candyce Phoenix, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Ayanna Pressley, Massachusetts       Michael Cloud, Texas
Eleanor Holmes Norton, District of   Carol D. Miller, West Virginia
    Columbia                         Frank Keller, Pennsylvania
                    
                    COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    Mark Green, Tennessee
Val Butler Deming, Florida           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on Date, 2020.......................................     1

                               Witnesses

Lt. Cmdr. Kimberly Young-McLear, Ph.D., Permanent Commissioned 
  Teaching Staff, United States Coast Guard Academy
Oral Statement...................................................    14

Mr. Jackson Eaton, Deputy Assistant Inspector General for Special 
  Reviews and EvaluationsDepartment of Homeland Security Office 
  of Inspector General
Oral Statement...................................................    16

Vice Admiral Michael McAllister, Coast Guard Deputy Commandant 
  for Mission Support, United States Coast Guard
Oral Statement...................................................    44

Written opening statements and statements for the witnesses are 
  available in the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * DHS response memo to an OIG report; submitted by Rep. Lesko.

  * QFRs: to Lt. Cmdr. Young-McLear at the U.S. Coast Guard; 
  submitted by Rep. Thompson.

  * QFRs: to Vice Admiral McAllister at the U.S. Coast Guard; 
  submitted by Rep. Thompson.

  * QFRs: to Vice Admiral McAllister at the U.S. Coast Guard; 
  submitted by from Rep. Hice.

Documents entered into the record during this hearing, and 
  Questions for the Record (QFR's) with responses are available 
  at: docs.house.gov.

 
                RIGHTING THE SHIP: THE COAST GUARD MUST
                  IMPROVE ITS PROCESSES FOR ADDRESSING
                  HARASSING, BULLYING, AND RETALIATION

                              ----------                              


                      Wednesday, December 11, 2020

                  House of Representatives,
  Subcommittee on Civil Rights and Civil Liberties,
                          Committee on Oversight and Reform
       Subcommittee on Transportation and Maritime 
                                          Security,
                             Committee on Homeland Security
                                                   Washington, D.C.

    The subcommittees met, pursuant to notice, at 10:10 a.m., 
in room 2154, Rayburn House Office Building, Hon. Jamie Raskin, 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Thompson, Correa, 
Clay, Cleaver, Kelly, Watson Coleman, Gomez, Ocasio-Cortez, 
Demings, Norton, Roy, Lesko, Massie, Katko, Hice, Bishop, 
Cloud, Miller, Keller, and Jordan.
    Also present: Representative Courtney.
    Mr. Raskin. Subcommittee will come to order.
    Good morning, everyone. Without objection, the chair is 
authorized to declare a recess of the committee at any time.
    Today's joint subcommittee hearing is convening with 
Homeland Security Subcommittee on Transportation and Maritime 
Security on how the Coast Guard is handling complaints of 
harassment and bullying.
    I ask unanimous consent that Congressman Joe Courtney of 
Connecticut be allowed to sit with the subcommittee on the dais 
to ask questions of the witnesses and to participate fully in 
this hearing, and without objection, so ordered.
    I will now make my opening statement before I turn to the 
ranking member.
    Welcome, everyone, to today's joint hearing with the 
Committee on Oversight and Reform Subcommittee on Civil 
Liberties and Civil Rights, and the Committee on Homeland 
Security Subcommittee on Transportation and Maritime Security.
    I want to first start by saying our subcommittee has been 
actively involved in working on ways to stop hate violence so I 
was dispirited to read the news of yet another anti-Semitic 
lethal attack which took place in New Jersey several hours ago. 
We send the victims' families our sympathy and our solidarity.
    Today's investigation was spearheaded by Chairman Bennie 
Thompson, who leads the Committee on Homeland Security, and by 
our own late chairman, Elijah Cummings, in close consultation 
with Connecticut Representative Courtney.
    Chairman Cummings served as the chairman of the 
Transportation Infrastructure Committee's Subcommittee on Coast 
Guard and Maritime Transportation for four years.
    He was deeply troubled by the results of a 2017 report 
finding inequitable outcomes for minority cadets including 
lower graduation rates and higher levels of discipline.
    Elijah was also disturbed by the Inspector General's 
finding that a member of the military assigned to the Coast 
Guard Academy faculty suffered retaliation for reporting 
harassment and bullying, and he wanted to know what was being 
done to address the retaliation and to ensure that the 
allegations were being handled properly.
    The findings of the committee's joint investigation are now 
clear. Coast Guard military leadership has failed to promptly, 
thoroughly, and impartially address harassment, bullying, and 
retaliation allegations at the Academy.
    Furthermore, Coast Guard leadership has refused to hold 
anyone accountable for these systemic failures.
    Lieutenant Commander Kimberly Young-McLear, who will 
testify today, is a faculty member at the Coast Guard Academy. 
She served in the Coast Guard for 16 years, holds a Ph.D. in 
systems engineering, and is on the permanent faculty there. She 
is among the very best our Nation has to offer.
    In 2016, Lieutenant Commander Young-McLear alleged she was 
suffering harassment and bullying. Her allegations were handled 
through the Coast Guard's anti-harassment process.
    However, rather than promptly and impartially determining 
whether or not her allegations were true, the Coast Guard swept 
her allegations under the rug.
    A senior officer then communicated to her that her 
allegations had been investigated three times and that each 
time the allegations were not substantiated. That was not 
accurate.
    The Coast Guard had not investigated any of these 
allegations fully. But the Coast Guard spread this 
misinformation far and wide, sowing doubt among Lieutenant 
Commander Young-McLear's colleagues about the legitimacy of her 
complaints, further isolating her from her peers in the 
workplace.
    Nevertheless, she persisted and took her allegations to the 
Office of the Deputy Commandant from Mission Support. The Coast 
Guard finally conducted an investigation that verified her 
complaint of bullying and found that she had suffered work 
interference and her performance had been undermined.
    And yet, senior Coast Guard officials inexplicably 
concluded that her allegations were unsubstantiated.
    Finally, to add injury to insult, Lieutenant Commander 
Young-McLear was retaliated against for making the original 
allegations of harassment and bullying.
    Anti-harassment and anti-bullying processes can be 
effective only if complainants can trust that the complaints 
will be handled properly.
    The many failures identified by our investigation sent a 
clear signal to Coast Guard personnel that coming forward with 
allegations of harassment or bullying is pointless and even 
potentially damaging to one's career.
    I also want to note that our staff reached out to the 
manager who allegedly harassed and bullied the lieutenant 
commander. But he refused to speak with our committee.
    I would like to thank Lieutenant Commander Young-McLear for 
her service to our Nation and her bravery in speaking out and 
being here with us today.
    I also want to thank the Office of the Inspector General 
for their work on this issue.
    Unfortunately, despite our repeated requests for his 
testimony, the commandant of the Coast Guard, Admiral Karl 
Schultz, refused to attend this hearing or to account for 
whether the Coast Guard will act to ensure that no other Coast 
Guard member suffers as Lieutenant Commander Young-McLear has 
suffered.
    According to the Coast Guard's Civil Rights Manual, quote, 
``Command leadership is ultimately responsible for the Coast 
Guard's civil rights outcomes,'' unquote.
    The commandant is the ultimate leader of the Coast Guard. 
His refusal to appear here today casts doubt on how seriously 
the Coast Guard is taking the disturbing findings of the 
Inspector General and of this committee.
    But rest assured, we take it very seriously, as our late 
beloved colleague, Elijah Cummings, did. We will continue to 
take it seriously and we will insist on the systematic changes 
that are necessary to address all of the efficiencies we have 
identified and to make certain that this anti-harassment policy 
is real.
    With that, I happily yield now to Mr. Roy.
    Mr. Roy. I thank the chairman. I appreciate the opportunity 
address this issue in this hearing and I really want to thank 
the witnesses, particularly Admiral McAllister, who will come 
in the second panel, and Lieutenant Commander Young-McLear for 
your service to our Nation.
    Each day, the men and women of the United States Coast 
Guard risk their lives to keep our country safe and we commend 
you for taking an oath to do so.
    I represent a district in Texas that, while not a coastal 
district, Texas is, obviously, a coastal state and we have got 
a bunch of proud members of the Coast Guard who are working 
diligently and particularly there dealing with the flow of 
dangerous narcotics and the cartels that operate along our 
border and the Coast Guard is right there on the front lines. 
So, we really do appreciate any others--members of the Coast 
Guard who are here in this room as well and thank you for your 
service.
    The Coast Guard does play a vital role in protecting our 
Nation's borders, maritime environment, and economy. In an 
average day, the men and women of the Coast Guard conduct 45 
search and rescue operations, saving on average 10 lives.
    But that is not all. The Coast Guard stops migrants from 
entering the country illegally, conducts vessel security 
boardings, prevents foreign vessels from illegally entering the 
United States' waters, prevents drugs from entering our 
country.
    In an average day, members of the Coast Guard interdict 874 
pounds of cocaine and 214 pounds of marijuana. I am sure most 
of us watched the Coast Guard's video in July.
    It showed members of the Coast Guard Cutter Munro jumping 
into a submarine packed with cocaine in the middle of the 
eastern Pacific Ocean.
    The sub contained five suspected drug smugglers and 17,000 
pounds of cocaine with a street value of over $230 million.
    This is the story of a broken system that we have addressed 
many times in this committee. It is also the story of a Coast 
Guard that is on the front lines dealing with a broken system.
    And I might add, if we were to do our job as a country, 
instead of wasting time through political shenanigans as we 
have been seeing unfolding heavily over the last there months, 
then we would secure the border of the United States. We would 
give more tools to the Coast Guard to be able to do their job.
    That narco sub was one of 14 drug-smuggling vessels the 
Coast Guard intercepted between May and July of this year off 
the coast of Mexico, Central America, and South America.
    That is just one example of the heroic actions members of 
the Coast Guard take every day to protect the safety of our 
Nation's borders and waterways.
    Today, my Democratic colleagues have called this hearing to 
showcase--not to showcase the valiant efforts of the Coast 
Guard but to demand this branch of our military make changes to 
its bullying and harassment policies.
    Now, to be clear, we should not tolerate a single act of 
bullying or harassment against a member of any branch of our 
armed services.
    If a member of our armed services experiences bullying or 
harassment, they should have an avenue to report these 
behaviors and actions to remedy the situation should be taken 
immediately.
    My Democratic colleagues released a report this morning, I 
think, or are about to release a report--I don't know if the 
chairman could confirm that or not.
    Mr. Raskin. Yes, it has been released.
    Mr. Roy. OK. And released a report that found that the 
Coast Guard military leadership failed to conduct prompt, 
thorough, and impartial investigations of allegations of 
harassment and bullying.
    These are troubling allegations and I am certainly glad 
that we are going to be able to address them with those in this 
hearing today.
    But the Democrats also found that significant improvements 
to policies and procedures are needed to ensure full and 
consistent enforcement of anti-harassment and hate incident 
policies.
    These conclusions are based off of observations made by the 
majority from studying two cases of allegations of harassment 
and bullying.
    I would note that the GOP--we got the information, I 
believe, over the weekend and did not sign on to the report 
because we thought it was more important to take more 
information in and looking into the report. Doesn't mean that 
the allegations don't have some merit.
    But when we get these things on a Saturday--and this is the 
point I was making a little earlier--we are constantly now 
spending our time dealing with a nonstop 24-hour-a-day 
impeachment effort which is consuming the time of the Judiciary 
Committee, the Oversight Committee, and the members of this 
body.
    And then we get a report on Saturday on something that is 
important as the allegations that we are currently seeing here. 
And we have got to have the time to be able to look at that, 
digest it, and make the right opinion.
    So, I am glad we are going to have the hearing. But I would 
have suggested that maybe we should have a report after we have 
the hearing and that we take in this information because that 
is how hearings should operate.
    I hope the testimony today provided can supply a wider 
basis upon which it make these conclusions and if there are, 
indeed, issues which the policies and procedures governing 
allegations of harassment and bullying are investigated at the 
Coast Guard they, of course, should be fixed.
    And with that, I yield back to the chairman.
    Mr. Raskin. Thank you kindly, Mr. Roy.
    I recognize now Homeland Security Subcommittee Chairman 
Correa for his opening statement.
    Mr. Correa. Thank you, Mr. Chairman.
    I want to, in many ways, join Mr. Roy in commending the 
Coast Guard for a great job they do. As you know, most of their 
work is to protect this country and, as you know, most of the 
narcotics entering this country now are through the sea.
    My committee have also learned that the north--that the 
Coast Guard actually goes as far as North Korea. They are 
actually helping us enforce sanctions on North Korea.
    They are doing a great job and as I hear this discussion 
and I read this issue it reminds me of the days when I was 
chair of a similar committee in the state senate where I had 
jurisdiction over the California National Guard.
    A few years ago, they had similar issues, and at that time 
we had the general of the California National Guard, General 
Baldwin, step up to the committee and say, you know what, we 
have issues.
    We are doing a good job in the state of California but we 
recognize these issues and we are going to join in with your 
committee, the chairman said to me, and we are going to fix 
these issues and we are going to make sure that the--that the 
California National Guard is no longer tarnished by these 
challenges and we will move ahead.
    Years later, California National Guard continues to do a 
great job but they are doing it much, much better. The 
challenges they had were history, and that is what we are 
supposed to do.
    A department, an agency, doing a great job but not perfect. 
We have to acknowledge those shortcomings that we have. We have 
to learn from our mistakes. We have to respect and acknowledge 
the service of each and every member of that service and move 
ahead.
    So, again, I want to thank Chairman Raskin, Subcommittee 
Ranking Members Roy and Lesko, and our full committee chairs 
and our ranking members and our distinguished witnesses for 
being here today. Welcome.
    I also want to wish and acknowledge the outstanding 
leadership of the late chairman of Oversight Reform, Elijah 
Cummings.
    Mr. Cummings, his commitment to ensuring the Coast Guard 
and the Coast Guard Academy did the best job possible, 
exemplified the highest values. His commitment to those goals 
is admirable, and today, we are going to continue his work.
    I want to acknowledge, of course, Lieutenant Commander 
Kimberly Young-McLear, one of our witnesses here today. Thank 
you for your leadership strength. Thank you for being here 
today.
    Sixteen years in the Coast Guard, service to our country 
exemplary. During the lieutenant commander's career, she 
utilized her background in STEM and her passion for inclusion 
as a catalyst for change and innovation in the Coast Guard.
    Among her contributions and achievements are as follows: 
serving as a special assistant to the deputy secretary of the 
Department of Homeland Security; tours of duty dedicated to 
naval engineering, maritime, and safety; serving as chair of 
the Coast Guard Academy Cyber and Leadership Diversity Advisory 
Council; and leading an award-winning research initiative 
focused on utilizing social media for large-scale disaster 
response during Hurricane Harvey and Hurricane Irma; earning a 
Ph.D. from George Washington University in systems engineering 
with a post-doctoral research focusing on protecting critical 
infrastructure from cyber threats in the maritime domain, and 
boy, we need your expertise; spending countless hours 
educating, mentoring, and supporting cadets to achieve their 
highest potential in all aspects of life; dedicating yourself 
to the new London, Connecticut community through the 
development of an outreach program for local middle school 
students aimed at closing gaps among underrepresented students 
in cybersecurity.
    I want to sign you up for my district. Serving on the 
education subcommittee of the local chapter of the NAACP; being 
recognized by the NAACP as a recipient of the Roy Wilkins 
Renowned Service Award for your significant contributions to 
civil rights and equal opportunity, and continuing to serve 
honorably as a visiting scholar at the Cybersecurity and 
Infrastructure Security Agency.
    Lieutenant Commander Young-McLear, I want to thank you for 
all your service and your courage in coming here today.
    Thank you very much.
    And today, we will examine how the Coast Guard handles 
allegations of harassment, bullying, and retaliation, and I 
would like to briefly summarize Lieutenant Commander Young-
McLear's allegations of how they were handled to show how 
current policies, procedures, have failed to support and 
protect complainants who rightfully seek justice and 
accountability for offenses.
    I look forward in learning more about the processes and the 
shortcomings and, more importantly, I want to make sure we all 
join together to fix what is not working.
    Mr. Chair?
    Mr. Raskin. Thank you so much, Mr. Correa.
    I yield now for her opening statement to the Homeland 
Security Subcommittee's ranking member, my friend, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman, and good morning to 
everyone and welcome to the witnesses not only on this panel 
but the witness on the next panel.
    Thank you, Mr. Chairman. The hearing we are holding today 
is certain to cover important issues related to diversity and 
culture within the United States Coast Guard and, more 
specifically, the Coast Guard Academy.
    We all recognize the need to ensure a positive and safe 
workplace within the Coast Guard. Bullying and retaliation are 
not acceptable in any workplace and I want to acknowledge the 
findings by the Inspector General's office substantiating a 
single instance of retaliation.
    However, I would also like to acknowledge that the Coast 
Guard has been responsive to the Inspector General's 
recommendations including correcting the complainant's officer 
evaluation review addressing training gaps for handling 
allegations and investigations of harassment and bullying as 
well as clarifying the need for discretion in such 
investigations.
    This is not a partisan issue and I look forward to 
discussing some of the Coast Guard's work in this space at 
today's hearing and from hearing from the witness.
    The majority has spent considerable time and expense on an 
investigation into a matter that was already investigated by 
the inspector general and remediated by the Coast Guard.
    Much of the one-sided report they released to the public 
today draws on recollections of staff, not actual transcripts. 
It fails to include input from several fact witnesses that were 
a party to the matter.
    Finally, many of the report's recommendations have already 
been implemented by the Coast Guard. The rest may or may not be 
feasible.
    But we don't know because the majority has not afforded the 
Coast Guard an opportunity to review the report or provide 
feedback, and the individuals named in the report were not 
given notice of their inclusion before the majority released 
their names today.
    I have to say I am also disappointed that the Chairman 
Raskin, in his opening statement, has sought to disparage the 
reputation of Admiral Schultz, a military service chief and 
distinguished four-star admiral with over 40 years of service 
in our Nation.
    This is especially disappointing because the Coast Guard 
has continually several times offered to have Vice Admiral 
McAllister testify and he will be on the second panel today 
only because the minority party asked him to be here.
    I am pleased to see that Vice Admiral McAllister here today 
as the minority witness on the second panel. As the deputy 
commandant of Mission Support, he is the most knowledgeable and 
appropriate witness to address the topic of today's hearing.
    Despite being offered as a witness to the majority multiple 
times, he is here today only because, as I have said, the 
minority invited him in an effort to get the Coast Guard's 
perspective on the facts of this issue.
    Over the last several years, the Coast Guard has taken 
steps to improve the diversity and foster an inclusive 
workplace at the Academy where service members, civilians, and 
cadets can conduct their mission free of harassment and 
discrimination.
    For instance, the Coast Guard Academy is the first service 
academy to partner with the Center for Urban Education at USC 
to address gender and race-related gaps in student learning 
outcomes.
    The Academy stood up a Center for Inclusive Learning and 
Teaching to enhance the learning environment for minority 
faculty and cadets. It also created an equity assessment report 
to track the impact of policy changes on cadet outcomes.
    I raise these examples, and I know the vice admiral will 
speak to other examples, because I want the record to reflect 
the positive actions the Coast Guard has taken to enhance 
diversity and inclusiveness.
    There is always more to be done. Don't get me wrong. And it 
should be done on this issue, and I know the Coast Guard is 
committed to always improving.
    Rather than dropping a one-sided report on our doorstep 
right before the hearing and refusing to entertain substantive 
input by the minority, why can't we all work together to 
achieve our common objectives on this important issue?
    In summary, we want to ensure that all people are treated 
fairly. No one should face harassment or bullying in the work 
force and I applaud the Coast Guard's positive actions to 
enhance diversity and inclusiveness while also acknowledging 
more can always be done to improve.
    It is also important to recognize the heroic and self-
sacrificing actions by the Coast Guard and its leadership each 
and every day.
    Mr. Chairman, thank you, and I yield back the balance of my 
time.
    Mr. Raskin. And thank you very much.
    I am now happy to recognize the chair of the full Oversight 
Committee, Mrs. Maloney, for her opening statement.
    Chairwoman Maloney. Thank you, and I thank the subcommittee 
chairman for his leadership.
    This hearing follows years of oversight of the Coast Guard, 
led by our two--our late chairman, Elijah Cummings. He strongly 
supported the Coast Guard and was extremely proud of the men 
and women serving our country. He also held the Coast Guard to 
the high standards that we should expect of all branches of our 
military.
    Joining us in this critical oversight has been our good 
friend, Chairman Thompson, of the Committee on Homeland 
Security, who jointly conducted this 18-month investigation 
into the Coast Guard's handling of harassment, bullying, and 
retaliation.
    I also commend my good friend and colleague, Representative 
Joe Courtney, who has been a partner in this effort and an 
advocate for his constituent, Lieutenant Commander Young-
McLear, and was his special guest at the last State of the 
Union. She was his guest.
    This morning, the committee--the committees are issuing a 
joint staff report finding that allegations of bullying and 
harassment have not been investigated promptly, thoroughly, or 
impartially at the Coast Guard.
    The report details weak policies that fail to require 
investigators to be trained adequately or to prohibit actions 
that could have a chilling effect on investigations.
    Most troubling, however, the report also reveals numerous 
actions by senior Coast Guard officials that demonstrate 
confusion and disregard for Coast Guard procedures for handling 
allegations of harassment and bullying.
    Committee staff examined in depth the case of a 
whistleblower, Lieutenant Commander Kimberly Young-McLear, who 
is testifying with us today.
    She is a member of the Permanent Military Faculty at the 
Coast Guard Academy. She holds a doctorate and is presently on 
detail to the Cybersecurity and Infrastructure Security Agency 
at DHS.
    Thank you for your service and your accomplishments and we 
are very proud of your willingness to serve and I look forward 
to your testimony.
    My colleagues have detailed how the Coast Guard failed to 
examine allegations of harassment and bullying that took place 
over five years and I want to talk briefly about the importance 
of effective policies and procedures and accountability for 
addressing these types of allegations.
    The men and women who serve in the Coast Guard have a 
critical mission to keep this country safe and secure. They 
should be able to carry out their mission without being 
harassed or bullied and without fear of retaliation when they 
report abusive behavior.
    We need effective anti-harassment and anti-bullying 
programs carried out promptly and impartially by senior 
leadership.
    This is essential to ensuring that Coast Guard men and 
women have the workplace they deserve where they can be fully 
effective in their jobs that frequently require them to put 
their own lives on the line in the service of our Nation.
    The investigative staff report shows that the Coast Guard 
does not have effective anti-harassment and anti-bullying 
programs or accountability programs in place.
    This failure has harmed individuals like the lieutenant 
commander who is appearing here today. This failure also may be 
contributing to an environment in which according to a 2019 
Rand study the Coast Guard had a 12 percent lower retention 
rate after 10 years of service for both female officers and 
enlisted personnel from 2005 to 2016 as compared to male 
service members.
    As the new chair of the Oversight Committee, let me be 
clear that whistleblowers are absolutely critical to the 
committee's mission to combat waste, fraud, and abuse across 
the Federal Government and I will continue our committee's long 
bipartisan tradition of supporting them.
    Retaliation against whistleblowers is not only prohibited 
by policy, it is illegal. When other employees see 
whistleblowers retaliated against, as the lieutenant commander 
was, they are less likely to come forward themselves to report 
wrongdoing including national security vulnerabilities.
    So, this hearing is extremely important to the national 
security of our country. I would just like to conclude that I 
am a strong supporter of the military. I come from a military 
family. My father served in World War II, my brother in 
Vietnam, and my husband during peacetime.
    But I am very distressed by these allegations. I am a 
strong advocate of women in the military. But they cannot serve 
to their full potential if they face harassment, 
discrimination, and not responsive environment to the concerns 
that they bring to the great military that this country has.
    I look forward to the hearing today, to your testimony, and 
to the Coast Guard's testimony, and I yield back.
    Mr. Raskin. Thank you, Madam Chairwoman.
    I am delighted now to recognize the Homeland Security full 
committee chairman, Bennie Thompson, for his opening statement. 
We are delighted to have you with us.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I am happy to be here simply because it has been a long 
time coming. As already been said, this issue should not have 
taken so long for us to get to this point. But nonetheless, 
patience is a virtue and I really thank Lieutenant Commander 
Young-McLear for her perseverance. Most people would have given 
up.
    So, in that spirit, I know it is not easy for any 
whistleblower to come forward publicly. But doing so after 
having already suffered retaliation requires exceptional 
courage, determination, and a commitment to the well being of 
fellow service members.
    Today's hearing is a result of the tireless work and 
leadership of the late chairman of the Committee on Oversight 
and Reform, Elijah Cummings, and his dedicated staff.
    Throughout his tenure in Congress, Chairman Cummings was a 
staunch supporter of the Coast Guard. Chairman Cummings served 
as chairman of the Coast Guard and Maritime Transportation 
Subcommittee on the Committee on Transportation and 
Infrastructure from 2007 to 2010 and pushed the Coast Guard 
Academy to increase its recruitment and retention of cadets 
from minority communities.
    He also was a fierce defender of civil rights and pressed 
the Coast Guard to root out bullying, harassment, and 
discrimination in its ranks.
    Chairman Cummings knew that the Coast Guard work force 
needed to reflect the diversity of this great nation and I 
couldn't agree more.
    Congress will greatly miss his leadership in ensuring that 
the Coast Guard truly is always ready.
    I would like to thank Chairwoman Maloney and her staff for 
picking up and carrying forward Chairman Cummings' work on 
these issues.
    I, too, have long been invested in the success of the Coast 
Guard and its critical homeland security missions which include 
maritime law enforcement, drug and migrant interdictions, port 
security, and the protection of the U.S. security and 
sovereignty throughout the world.
    I have also advocated for the Coast Guard to do more, to do 
better represent the country it serves and perhaps nowhere is 
that more important than at the Coast Guard Academy.
    The Academy shapes the future leaders of the Coast Guard as 
the largest source of its officer corps. That is why I am 
pleased that this year's Coast Guard Authorization Act 
incorporated language based on my bill, the Coast Guard Academy 
Act, which I introduced in June of this year with Chairman 
Cummings, Correa, and Richmond as co-sponsors.
    That language requires the Coast Guard to develop a plan to 
implement the recruit and retention of minority cadets at the 
Academy and assess how to implement a congressional nomination 
process among other measures.
    Creating an equitable climate at the Coast Guard Academy 
for both cadets and faculty is critical to the future success 
of the institution and the greater service.
    Such a climate can only exist if allegations of harassment 
and bullying are investigated appropriately and when 
whistleblowers are free to come forward without fear of 
retaliation.
    As such, I am dismayed that the Academy's leadership 
retaliated against Lieutenant Commander Kimberly Young-McLear 
after she made complaints about workplace bullying and 
harassment for years while serving as a faculty member at the 
Academy.
    The DHS Office of Inspector General substantiated the 
retaliation occurred in a report issued last December. The 
complaint processes failed her as Coast Guard leadership failed 
to truly investigate her allegations, which ultimately 
contributed to the retaliation she experienced.
    To date, the Coast Guard has not held anyone accountable 
for failing to investigate the lieutenant commander's claims or 
for the retaliation she suffered.
    Unfortunately, her story is not an isolated incident. The 
committee has been made aware of similar recent occurrences of 
bullying, harassment, inequitable treatment across the service 
including two other instances of whistleblower retaliation 
substantiated by the DHS Inspector General.
    Lieutenant Commander Young-McLear, again, I am grateful to 
have you here today to share your story with us. I admire your 
bravery in coming forward and continuing to share your 
experiences despite the Coast Guard's repeated efforts to 
simply turn the page.
    It is time for the service to take your experiences and the 
finding of the DHS Office of Inspector General seriously. 
Repeated instances of substantiated retaliation demand the 
commandant's immediate attention.
    It is unfortunate that Admiral Shultz refused our repeated 
requests to testify before the committee today. His refusal to 
testify today is the latest in a series of actions by the Coast 
Guard and the Department of Homeland Security to stonewall the 
investigative efforts of our committee over the past 18 months.
    The Coast Guard has produced incomplete and heavily 
redacted documents related to our committee's investigation 
without any explanation for the redactions, which is 
unacceptable.
    This document is unacceptable, which you can see on the 
screen. There is not much you can get from a document produced 
in that manner. The lack of transparency and resistance 
exhibited by the Coast Guard and its leadership during the 
course of our investigation has truly been troubling.
    Lieutenant Commander, it is telling that you have the 
courage to join us today to share your story despite more than 
four years of adversity and retaliation and, yet, the 
commandant is not here to speak for the Coast Guard. His 
absence is telling.
    I would like to close by noting that the Coast Guard's 
biggest asset is not its fleet but its people. If the service 
does not know how to take care of its own people, it cannot 
execute its critical mission to protect our homeland.
    The climate and cultural challenges at the Coast Guard 
Academy should not solely alarm the leadership at the Academy 
but also at Coast Guard headquarters.
    The culture at the Academy permeates the rest of the 
service. That is why it is critical that Coast Guard leadership 
address this serious matter now.
    And in closing, I understand the mission of the Coast Guard 
and I applaud them for doing a good job. I am a Katrina 
survivor. A lot of people the Coast Guard helped in my 
district. A number of hurricanes and other natural disasters--
the Coast Guard is always there.
    But, you know, we have to get everything right. We just 
can't get some things right. And so I am concerned that anybody 
in this country who lives in this country, especially who is a 
member of our armed services, who has taken and oath of office 
to defend our rights as Americans also has rights for 
themselves.
    And so it is in that spirit that we need to get this right. 
I look forward to the testimony from the witnesses and I, 
again, thank Chairwoman Maloney and others for getting us to 
this point. It is absolutely necessary for us to get it right.
    And I yield back, Mr. Chair.
    Mr. Raskin. Thank you very much, Chairman, for your 
thoughtful remarks.
    We are going to turn now to the introduction of the 
witnesses and for that I am going to call on Mr. Courtney, who 
represents New London, Connecticut, and therefore, the Training 
Academy to introduce his constituent.
    Mr. Courtney. Thank you, Mr. Chairman, and I want to thank 
yourself and all the committee members for the opportunity to 
participate in today's hearing.
    It is an honor this morning to introduce Lieutenant 
Commander Kimberly Young-McLear, whose presence today is 
another example of her outstanding service to the Coast Guard 
and her steadfast commitment to the goal of an inclusive Coast 
Guard where every service member is valued.
    I am not going to repeat her gold-plated resume. I want to 
thank all of the other members on both sides this morning, 
again, walking through her amazing educational and service 
accomplishments.
    What I wanted to just sort of share is that, you know, 
having the opportunity and the privilege to get to know her 
over the last couple years is that it is clear to me that the 
day she raised her right hand and took the oath to defend and 
uphold the Constitution of the United States and join the Coast 
Guard, moving up through the ranks at the Officer Candidate 
School in New London to, again, become part of the leadership 
of the Coast Guard, she has made a positive difference at every 
juncture, whether it is in the service, whether it is at the 
Academy on the campus, or whether it is in the community of New 
London.
    I want to thank Mr. Correa for mentioning the fact that 
she, again, initiated a STEM program for middle school students 
who are underrepresented in terms of getting into that critical 
skill set for future opportunities for America's work force.
    And I would just note that because of that work she was 
honored along with her team with the Coast Guard Captain Niels 
P. Thomsen Innovation Award for cultural change for the great 
work that she did there.
    But I also want to make the point that she is not alone. 
Today, she is joined by a dozen or so of her colleagues who 
ventured down from New London to be here today because they 
know the positive difference that she makes and what she is 
talking about here today is not an isolated incident.
    The IG report clearly documents that we are talking about a 
systemic issue and again, I want to recognize them, 
particularly her wife, Gale Young-McLear, who is here today, 
and because, again, I think every, you know, breath she takes 
is always focused on advancing the mission of the Coast Guard, 
I just want to say that that came from--that fidelity to the 
mission of the Coast Guard came from the fact that she was 
raised by two parents who are here this morning as well, Andrew 
and Jackie McLear, who are sitting in the front row, who are 
both veterans of the U.S. Air Force and, obviously, instilled 
in her the values of service and commitment to the country.
    So, again, we are just so amazed and honored by your 
incredible service and, as the chairwoman pointed out, I was 
honored to bring her to the State of the Union Address back in 
January.
    She interacted with dozens of members of the House in 
uniform. She was an outstanding Ambassador for the Coast Guard 
and I wrote to the commandant to tell him about that 
experience--that, you know, again, she should make all of us 
proud in terms of the work that she does to advance this 
critical important service that does such great work for our 
country.
    And with that, I yield back.
    Mr. Raskin. Thank you very much.
    I know everyone is on the edge of their seat waiting to 
hear from the lieutenant commander at this point. I want to, in 
just one sentence, to introduce our other very fine witness, 
Mr. Jackson Eaton, who is the deputy assistant inspector 
general for Special Reviews and Evaluations at the Department 
of Homeland Security Office of the Inspector General. So, Mr. 
Eaton, thank you very much for joining us.
    Lieutenant Commander, you are now recognized for your 
statement.
    Forgive me, but if you would both rise and raise your right 
hand. I have got to swear you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Mr. Raskin. Let the record show the witnesses both answered 
in the affirmative. Thank you.
    Please be seated and speak directly into the microphones 
and, without objection, your written statements will be made 
part of the record.
    And Lieutenant Commander Young-McLear, you are now 
recognized to give your oral presentation.

     STATEMENT OF KIMBERLY YOUNG-MCLEAR, PH.D., PERMANENT 
 COMMISSIONED TEACHING STAFF, UNITED STATES COAST GUARD ACADEMY

    Ms. Young-McLear. Well, first, good morning, Chairman 
Raskin, Chairman Correa, Ranking Member Roy, Ranking Member 
Lesko, and distinguished members of the committees and 
subcommittees.
    Thank you for this opportunity to share with the public and 
to Congress on the Coast Guard's handling of bullying, 
harassment, and retaliation allegations.
    I am incredibly proud to serve alongside the Coast Guard 
individuals, thousands of us, who are brave and talented who go 
to extraordinary lengths to serve and safeguard our Nation.
    However, if individuals serving the Coast Guard are not 
safe in the workplace, whether because they are facing sexual 
assault, hazing, bullying, harassment, discrimination, and 
retaliation, then we are actively impeding our ability to carry 
out our missions fully.
    The Coast Guard's lack of accountability, transparency, and 
integrity with respect to these types of allegations are just 
some of the barriers to achieving a fully thriving work force.
    As it pertains to specific allegations I have made over the 
past five years, I will testify today about my experiences and 
the actions of several captains, two senior Executive Service 
civilians, and seven admirals I believe could have and should 
have ensured our policies and the law were followed.
    I have devoted more than 16 years serving my country in the 
U.S. Coast Guard. I am currently serving on a new detail at the 
Cybersecurity and Infrastructure Security Agency, CISA, as a 
visiting scholar.
    Prior to joining the faculty at the Coast Guard Academy, I 
served in a variety of rewarding assignments including as 
marine inspector, industrial manager, and special assistant to 
the deputy secretary of the Department of Homeland Security.
    Throughout my career, I have consistently earned the 
respect of shipmates at both the deck plate level and at more 
senior levels. In fact, it was not uncommon for admirals and 
other senior Coast Guard leaders to reach out to me directly, 
seeking out my expertise and judgment on a range of topics from 
operations to work force culture.
    As you can imagine, I was deeply humbled, honored, and 
excited when I was first offered the opportunity to serve as a 
member of the Permanent Commission teaching staff to develop 
our next generations of leaders.
    Once I began teaching, however, I was subjected to 
degrading comments, often used as a scapegoat, and my work was 
constantly undermined.
    The actions of every individual in my Coast Guard Academy 
chain of command, including by two admirals, fostered a climate 
of additional abuse and isolation.
    That behavior eventually escalated into bullying and 
harassment and transformed an exciting work opportunity into a 
hostile work environment where I was targeted and retaliated 
against.
    By June 2016, after enduring two years of abuse and 
participating in two disturbingly inadequate and humiliating 
investigations by the Coast Guard Academy, I was certain that 
what I was experiencing defied our core values, numerous 
policies, and even, potentially, laws.
    The more I reported the escalating abuses to the chain of 
command, even above the Academy, the further I was targeted, 
harassed, and retaliated against.
    By March 2017, Admiral Paul Zukunft, the former commandant, 
received four correspondence detailing years of my allegations. 
As the abuses against me escalated well into 2018, I had 
exhausted each of the Coast Guard's civil rights and bullying 
complaint processes.
    Ultimately, the Coast Guard failed to provide a safe 
working environment and failed to hold those responsible 
accountable, despite evidence of wrongdoing and knowledge of 
our culture.
    The psychological, emotional, and financial toll this has 
had on my wife and me cannot be overstated. The suicide rate 
for active duty U.S. military members in 2018 was the highest 
on record since the Department of Defense began noting these 
deaths in 2001.
    Given the alarming suicide rates in the military, I, 
actually we, all have the duty to ensure that our working 
environments at a minimum are safe from abuses.
    For these reasons and more, it is unfathomable and deeply 
heartbreaking that I was denied a formal written apology and an 
opportunity to discuss with our current commandant, Admiral 
Karl Schultz, ways in which the Coast Guard can learn from my 
case to ensure these abuses never happen to anyone else.
    Since the DHS OIG whistleblower retaliation report was 
released a year ago, many Coast Guard individuals who are 
overwhelmingly talented devoted people of color, women, and 
LGBTQ have reached out to me to share their experiences and to 
convey that these systemic issues up and down the ranks are not 
unique to the Coast Guard Academy.
    I would like to acknowledge the support of courageous 
colleagues, cadets, and community members. I would like to 
especially thank my wife, parents, and other family members 
here in attendance, all of whom are veterans.
    To conclude, I would like to acknowledge the tragic loss of 
Congressman Elijah Cummings. He was a civil rights hero and one 
of the Coast Guard's most outspoken advocates.
    I sincerely hope that my testimony here today can shed 
light not only on some of the injustices that have occurred 
within the Coast Guard but also highlight where we can improve 
our service culture such that we can best serve the American 
people.
    Mr. Raskin. Thank you very much for your testimony.
    Mr. Eaton?

STATEMENT OF JACKSON EATON, DEPUTY ASSISTANT INSPECTOR GENERAL 
  FOR SPECIAL REVIEWS AND EVALUATIONS, DEPARTMENT OF HOMELAND 
              SECURITY OFFICE OF INSPECTOR GENERAL

    Mr. Eaton. Good morning, Chairman Raskin, Chairman Correa, 
Chairwoman Maloney, Chairman Thompson, Ranking Member Roy, 
Ranking Member Lesko, and Ranking Member Jordan, and members of 
the subcommittees.
    Thank you for the opportunity to testify today on behalf of 
the Office of Inspector General for the Department of Homeland 
Security.
    I understand that the subcommittees have been examining the 
Coast Guard's handling of complaints of harassment, 
discrimination, and bullying, and that the subcommittees 
believe our whistleblower retaliation report of December 4, 
2018, may provide a case study into the issue.
    While I cannot offer an assessment of whether the issues 
presented in our report are indicative of broader problems 
throughout the Coast Guard, I am happy to provide an overview 
of our specific investigation.
    When we published our report the name of our complainant 
was confidential. The complainant subsequently consented to the 
release of her name publicly and I can disclose that Lieutenant 
Commander Kimberly Young-McLear, appearing alongside me today, 
is the complainant from our report.
    However, several other figures from the report, including 
her supervisors and colleagues, have not consented to the 
public release of their names and I will not be able to confirm 
or deny even indirectly the identities of these witnesses 
today.
    In July 2015 and over the following 18 months, Lieutenant 
Commander Young-McLear submitted five sets of both informal and 
formal complaints alleging discrimination and harassment at the 
Coast Guard Academy.
    Our interest was not in substantiating the merits of these 
complaints. Rather, it was to examine the Coast Guard's 
response to them.
    Primarily, had the Coast Guard, in violation of the 
Military Whistleblower Protection Act, retaliated against 
Lieutenant Commander Young-McLear for making these complaints?
    We found that it one case it had. Namely, she received low 
marks on her officer evaluation report. These marks could not 
be justified by any documented performance issues. Moreover, 
none of her peers had received a rating as low as hers and she 
herself had received higher marks in both prior and subsequent 
rating periods.
    In addition to substantiating whistleblower retaliation on 
the part of certain Academy management officials, our 
investigation identified several other issues that are relevant 
to this subcommittee's hearing today.
    For example, after Lieutenant Commander Young-McLear's 
second complaint in March 2016, the Coast Guard conducted a 
preliminary inquiry into her allegations. The investigator 
performing that inquiry recommended that a full administrative 
investigation be conducted.
    However, no such investigation was convened. Instead, 
Academy officials initiated a more general and relatively 
superficial climate and culture survey of her academic 
department.
    In addition, a similar situation occurred after Lieutenant 
Commander Young-McLear complained of further harassment and 
bullying in January 2017.
    At that time, the Coast Guard conducted an administrative 
investigation which resulted in an outcome memo issued by a 
Coast Guard admiral addressing the harassment allegations.
    While the investigators' conclusions were nuanced, 
including finding that, quote, ``There are several instances in 
which it seems her chain of command is harassing/bullying 
her,'' the admiral's memo characterizing the outcome of that 
investigation concluded that, quote, ``The allegations are 
unsubstantiated.''
    The reasons for this admiral's decision, as well as a 
second admiral's finding that the bullying allegations were 
also unsubstantiated, are unclear in part because there was no 
requirement that commanders document their decisionmaking in 
writing.
    Last, although the Coast Guard Civil Rights Manual required 
complaints of harassment to be treated confidentially to the 
extent possible, we found that one Academy official continued 
to discuss Lieutenant Commander Young-McLear and her complaints 
with colleagues, which may have given the appearance of 
improper coordination or influence.
    We also found that this Academy official demonstrated a 
lack of understanding of what constitutes discrimination and 
did not appreciate the distinction between the military equal 
opportunity complaint process and the Coast Guard's harassment 
complaint process.
    As a result of these findings, we made four recommendations 
to the department. The Coast Guard has implemented three of 
them.
    Thank you for the opportunity to discuss the important work 
of the OIG. This concludes my testimony. I am happy to answer 
any questions you may have.
    Mr. Raskin. Thank you very much, Mr. Eaton, and we will now 
begin member questioning for five minutes. I am going to start. 
I want to thank you both for appearing and for your testimony.
    Lieutenant Commander, you have handled this whole episode 
with remarkable dignity and grace, and we want to thank you for 
standing up to talk about the problems you experienced.
    Let me just start a question with you. If someone were just 
to ask you in nonlegal language do you feel as if the Coast 
Guard responded in a fair and comprehensive way to the abuse 
you suffered, what would you say? How would you explain what 
happened?
    Ms. Young-McLear. I would say the Coast Guard did not 
respond appropriately. In numerous instances there were 
conflicts of interest with how they assigned investigators.
    The adequacy in terms of how in depth they collected 
evidence, how many witnesses they interviewed was lacking and 
just, really, just the humiliation of the process itself in 
terms of violating privacy and just really making a mockery of 
the process. So----
    Mr. Raskin. Do you feel it was unprofessional?
    Ms. Young-McLear. It was unprofessional.
    Mr. Raskin. And do you feel that it was not designed to 
accomplish an accurate assessment of what actually took place?
    Ms. Young-McLear. Yes.
    Mr. Raskin. Mr. Eaton, your office found that Coast Guard 
officials retaliated against Lieutenant Commander Young-McLear 
by lowering her officer evaluation report--her performance 
review--after she raised the discrimination and harassment 
complaints against her supervisor. Is that right?
    Mr. Eaton. Yes, sir.
    Mr. Raskin. OK. Can you describe what the evidence was for 
your finding that she had been downgraded?
    Mr. Eaton. So, in evaluating the OER, we identified that 
she had received three ranks of five. There is a numerical 
scoring on that OER. Those ranks--those rankings were not 
documented by performance issues.
    We also identified that her peers had received numerical 
ranks of six, which is a higher rating, and that Lieutenant 
Commander Young-McLear herself had received rankings of six in 
the ratings period before and subsequent to the rating period 
that it----
    Mr. Raskin. So, if you think of it like a report card you 
would see a row of sixes, then she makes her complaint, and 
then it drops down to three. Is that right?
    Mr. Eaton. To a five. Three--there were three numerical 
scores of five. There are a number of different----
    Mr. Raskin. From sixes to fives. Is that right?
    Mr. Eaton. Right.
    Mr. Raskin. OK. And did this retaliation that you found 
violate the Military Whistleblower Protection Act?
    Mr. Eaton. We found that it had, yes.
    Mr. Raskin. You did? OK. And how did that affect your 
career, Lieutenant Commander?
    Ms. Young-McLear. So, I want to clarify. So, as a permanent 
military faculty member, the perspective that I have is it is--
it is really about dignity and the purpose of the document is 
to accurately to describe what our performances are.
    So, that is the first factor is it is supposed to 
document--it is an official document that is supposed to 
capture your--the true impact of your performance. Generally 
speaking, for officers that is really the document that we use 
in our records to denote who is going to be promoted, unlike 
the enlisted work force. So----
    Mr. Raskin. It is critical to your promotion----
    Ms. Young-McLear. It is absolutely critical and because of 
a--the scale one through seven and changes between sixes to 
fives, what may seem subtle to some has a drastic impact in 
terms of if you are up for recommendations for a command or a 
promotion.
    Mr. Raskin. OK. So, after the finding of the bullying and 
harassment and the retaliation, did the Coast Guard correct 
your officer evaluation report? Did they----
    Ms. Young-McLear. So, the corrections were made on the 
numerical values only after the OIG report.
    Mr. Raskin. After the OIG report. OK. So, it was made. So, 
now it has been corrected but it wasn't corrected at the time?
    Ms. Young-McLear. Yes, only the numerical scores.
    Mr. Raskin. OK. Mr. Eaton, to your knowledge, has the Coast 
Guard held accountable any of the senior officials which your 
office found had engaged in the retaliation in violation of the 
Whistleblower Protection Act in the military?
    Mr. Eaton. No, it has not.
    Mr. Raskin. OK. In fact, according to the IG's most recent 
semiannual report, I quote, ``No actions were taken against any 
of the officials involved in this substantiated retaliation. 
DHS told OIG that one official retired early this year but was 
not subject to any disciplinary action regarding this matter.''
    Mr. Eaton, I thank you and the IG's office for your work, 
and Lieutenant Commander, I want to thank you for your service 
to America and your service to Congress and coming forward to 
discuss this.
    And I now yield to Mr. Roy for five minutes for his 
questions.
    Mr. Roy. I thank the chairman.
    First say I don't think there is anyone down here who is 
looking--everybody hear good, the questions? OK.
    A quick question for Mr. Eaton. Can a whistleblower come 
directly to the IG if they believe they have experienced 
retaliation?
    Mr. Eaton. Yes, sir.
    Mr. Roy. Does the IG provide any training or notices for 
how a whistleblower can contact the IG? How does that work?
    Mr. Eaton. Our office has a whistleblower coordinator. 
There is also a hotline complaint that--hotline number that 
whistleblowers can contact our office.
    Mr. Roy. Other than hearing directly from the 
whistleblower, how else does the IG become involved in cases of 
whistleblower retaliation?
    Mr. Eaton. Generally, it is from whistleblower complaints. 
I am not aware that there have been any other cases. But if we 
were referred of an instance, that might be something our 
office would investigate.
    Mr. Roy. When the IG receives a report of whistleblower 
retaliation, what protocols and procedures do the IG follow to 
investigate the claims?
    Mr. Eaton. We have an intake process, sir, where the 
complaint is evaluated to determine whether it meets a prima 
facie case of whistleblower retaliation.
    If it does, we then open an investigation. If we do not, we 
may refer that complaint to another component or an office for 
investigation.
    Mr. Roy. OK. In the case of Lieutenant Commander Young-
McLear, how did the IG go about investigating the allegations 
of whistleblower retaliation?
    Mr. Eaton. After we processed the initial complaint, we 
opened our investigation. We began with the process of 
requesting documents in November 2017 and February 2018. We 
then conducted interviews in May 2018. Mostly in May 2018, sir.
    Mr. Roy. How long did the investigation take?
    Mr. Eaton. It took a little over a year.
    Mr. Roy. OK. Did relevant individuals involved in this 
particular case get an opportunity to review the report prior 
to its publication?
    Mr. Eaton. I am sorry. Say it one more time.
    Mr. Roy. Did relevant individuals who was involved in the 
case get an opportunity to review the report prior to its 
publication?
    Mr. Eaton. We do not issue a report prior to publication. 
No, sir.
    Mr. Roy. But there--was there any chance for people to 
review what your report would be, the people who were relevant 
in the investigation?
    Mr. Eaton. I am not aware of an ability for them to review 
the report. They, obviously, were able to answer questions when 
they discussed the case with our investigators.
    Mr. Roy. Did the Coast Guard receive an opportunity to 
review any report produced by the IG?
    Mr. Eaton. When we published the report we did provide a 
copy of that report to the department, which then provides it 
to the Coast Guard.
    Mr. Roy. But after publication?
    Mr. Eaton. Correct.
    Mr. Roy. So, when you were producing your report you didn't 
go to the Coast Guard to have any input on the report? You just 
produced the report?
    Mr. Eaton. For these whistleblower retaliation reports, 
yes, sir.
    Mr. Roy. Did the IG change any part of the report based on 
any feedback received from any--anyone sought, whether it was 
the Coast Guard or anyone else?
    Mr. Eaton. There may have been corrections in the draft as 
interviews were conducted or documents reviewed. But I am not 
aware of anything of the kind you are saying, sir.
    Mr. Roy. Lieutenant Commander Young-McLear, did you feel 
that the process that you dealt with respect to the Inspector 
General was that--did that process work the way you would think 
it should?
    Ms. Young-McLear. Yes, I believe it did. It was a lengthy 
process and I also did not have any advanced notice as well 
when the report came out.
    Mr. Roy. OK. I don't have any other questions, Mr. 
Chairman.
    Mr. Raskin. Thank you very much.
    Mr. Correa?
    Mr. Correa. Thank you, Mr. Chairman.
    Lieutenant Commander Young-McLear, the history of your 
allegations and harassment and bullying is quite long and 
complicated due to the Coast Guard's failure to properly handle 
these allegations from the very beginning, and I would like to, 
if I can, review a little bit of that history.
    July 2015, you contacted a civil rights service provider 
and indicated your intent to file a complaint under the 
military equal opportunity process, correct?
    Ms. Young-McLear. Yes, that is correct.
    Mr. Correa. However, you engaged in alternative dispute 
resolution with the Academy dean and reached a resolution 
agreement. So, you did not file a formal complaint at that 
time?
    Ms. Young-McLear. That is correct.
    Mr. Correa. That is correct. So, no investigation of any 
allegation was conducted at that time. Is that correct?
    Ms. Young-McLear. That is correct.
    Mr. Correa. And then in March 2016, almost a year later, 
you alleged the resolution agreement had been breached and you 
were suffering harassment. These allegations were handled under 
the Coast Guard's anti-harassment process, correct?
    Ms. Young-McLear. That is correct.
    Mr. Correa. Then a preliminary inquiry into these 
allegations found that, and I quote, ``This preliminary inquiry 
does not afford sufficient detail or depth to fairly conclude 
whether or not prohibited harassment has occurred,'' correct?
    Ms. Young-McLear. That is correct. I was not aware of that 
information at that time.
    Mr. Correa. How about you, Mr. Eaton?
    Mr. Eaton. That is correct, sir.
    Mr. Correa. OK. And Mr. Eaton, although the preliminary 
inquiry recommended that an investigation of the allegations be 
conducted by someone, and I quote, ``credentialed in human 
resources, EEO, civil rights and/or diversity and inclusion,'' 
that didn't happen?
    Mr. Eaton. That is correct, sir.
    Mr. Correa. And according to the Inspector General's 
report, no one ever, and I quote, ``ordered a subsequent 
investigation into the allegations'' raised by the lieutenant 
commander. Is that correct?
    Mr. Eaton. That is correct, sir.
    Mr. Correa. And instead, an admiral convened a climate and 
culture investigation. Is that correct?
    Mr. Eaton. Yes, sir.
    Mr. Correa. The committee's investigation has determined 
that the climate and culture investigation did not look into 
any specific allegations that the lieutenant commander made and 
in fact the investigator who conducted the climate and culture 
told the committee, and I quote, ``I was expressly asked not to 
look at any individual.'' Is that correct?
    Mr. Eaton. I am not aware of that specific quote. But I do 
know that the climate and culture investigation was relatively 
superficial, as we said in our report.
    Mr. Correa. And yet, an admiral sent an email to the 
lieutenant commander that said, and I quote, ``Based on the 
command's review of the three inquiries investigations 
conducted by Dean Colella''--and a couple of other people whose 
names have been redacted--``we have determined that you have 
not been subject to substantiated harassment in that the 
climate and culture of the Coast Guard Academy management 
department is sound.''
    This email was completely inaccurate. And yet, when the 
lieutenant commander tried to ask questions about this 
conclusion and restate her allegations, she was told by the 
admiral, and I quote, ``We need to move forward.'' Is this 
correct?
    Ms. Young-McLear. Yes, that is correct.
    Mr. Correa. OK. Lieutenant Commander, explain to me how has 
this process made you feel?
    Ms. Young-McLear. Humiliated. It----
    Mr. Correa. Justice?
    Ms. Young-McLear. The Coast Guard processes, no, there has 
been zero justice in the Coast Guard processes, and even after 
the release of the OIG report this past December.
    Mr. Correa. You are a loyal patriotic member of the Coast 
Guard. How did this process make you feel?
    Ms. Young-McLear. After filing all the complaints that I 
did just throughout the long journey since 2014, it was 
devastating because I was really excited to teach at the Coast 
Guard Academy.
    I was excited about being in a place where I can give back 
and serve and actually be in one place.
    Mr. Correa. You earned the opportunity to teach at the 
Coast Guard Academy.
    Ms. Young-McLear. Yes.
    Mr. Correa. Thank you.
    Mr. Chair, I yield. Madam Chair.
    Chairwoman Maloney. [Presiding.] The chair recognizes 
Representative Debbie Lesko from Arizona.
    Mrs. Lesko. Thank you, Madam Chairman.
    First, I want to say to you, Lieutenant Commander Young-
McLear, that I am sorry that any of these things happened to 
you and I appreciate you being here today.
    And my question--well, before I do a question, Madam Chair, 
I ask unanimous consent to enter into the record this DHS 
response memo to the OIG report, without----
    Chairwoman Maloney. So, granted.
    Mrs. Lesko. Thank you very much, and I will just hand it to 
you.
    My first question is for Mr. Eaton. Mr. Eaton, I think you 
testified that three out of the four IG recommendations have 
been completed. Is that correct?
    Mr. Eaton. That is correct, ma'am.
    Mrs. Lesko. And which one has not been completed?
    Mr. Eaton. During the course of our investigation we 
identified that in the Coast Guard's Civil Rights Manual that 
it refers service members with whistleblower retaliation 
complaints to file those complaints with the Office of Special 
Counsel.
    That is actually incorrect. OIG has sole jurisdiction over 
whistleblower retaliation complaints under the Military 
Whistleblower Protection Act.
    So, we recommended that the Coast Guard correct that. In 
its implementation memo I think that you just entered into the 
record the secretary indicated that would be corrected not just 
in the Civil Rights Manual but a separate discipline and good 
conduct.
    I am not sure if that is the correct name but a separate 
manual. The Coast Guard has corrected it in the Civil Rights 
Manual but not yet the second one.
    Mrs. Lesko. Well, thank you for that and in our next panel 
we have the Coast Guard, who can address that as well.
    But I also have another question. You had mentioned in your 
previous testimony or your opening statement, I think, that the 
Office of Inspector General redacts names in its investigation 
reports unless you have the clear consent and permission of the 
people. Is that accurate?
    Mr. Eaton. That is correct. When we provide our reports to 
the department--the department's reports--we will unredact the 
names of certain responsible management officials in the event 
that the department considers it appropriate to take 
disciplinary action against those officials.
    Mrs. Lesko. And the reason that you redact names is because 
of what?
    Mr. Eaton. In order to encourage cooperation from witnesses 
when we conduct these investigations, including in this 
investigation we depend on the cooperation of witnesses and 
responsible management officials themselves.
    Mrs. Lesko. And it is my understanding that the report that 
was published today by the majority party actually named names 
without asking the permission of the people, you know, to name 
the names and so that is a little troubling to me and, hence, 
the reason that I asked the question that I did.
    I am going to save my questions--my other questions--for 
the Coast Guard when they come up to testify.
    Thank you, both of you, and I yield back my time.
    Chairwoman Maloney. Thank you very much.
    First, I would like to welcome and thank Lieutenant 
Commander Young-McLear for your service and for your bravery, 
really, of coming forward.
    I also want to make clear in front of all who are watching 
this that--and, particularly, the Coast Guard leadership, that 
if as a result of your decision to come forward and speak about 
what you have experienced you have suffered any form of 
retaliation you must inform our committee. Retaliation against 
whistleblowing is illegal and will not be tolerated.
    My first question for you, Lieutenant Commander, is was 
anybody held accountable in this process?
    Ms. Young-McLear. No. Nobody was held accountable.
    Chairwoman Maloney. No one?
    Ms. Young-McLear. To my knowledge.
    Chairwoman Maloney. And if someone was held accountable, do 
you think it would be a deterrence for happening to someone in 
the future, obviously?
    Ms. Young-McLear. Yes, absolutely.
    Chairwoman Maloney. And you just went through five years of 
a really difficult situation. If you had it to do all over 
again, is there any way you could have made the system work 
better for you and for other people like you who are bringing 
complaints?
    Ms. Young-McLear. Yes. I think that the civil rights 
processes to include also how we report bullying is completely 
broken.
    I believe that someone should only have to report 
allegations once and they should be taken seriously, and we 
should afford them the opportunity of a thorough investigation 
that is not riddled in just humiliation.
    I think that we have to take a serious look at why we have 
a culture that, despite evidence, despite the fact that laws 
were broken, policies were broken, that we are not holding 
people accountable. And I think until we actually get to a 
place of accountability, I don't think that we are actually 
going to improve.
    Chairwoman Maloney. And what would you recommend would be 
the accountability? Fines? What would you see as the 
accountability? Removal from office? Reassigned to different 
offices? What would you see the accountability that might stop 
this culture?
    Ms. Young-McLear. Well, I think, at a--at a minimum, we 
have policies for virtually everything in the military from if 
you are doing drugs you should be--and so on.
    So, I think that harassing someone shouldn't be treated any 
differently than any of the other infractions that we have in 
our service and I think that we need to center on those who are 
being harmed.
    So accountability, to me, looks like if someone needs to be 
removed from their positions that they don't continue to harm 
someone to include, potentially, removing them from the 
service. I think that is definitely worth looking into.
    Chairwoman Maloney. Now, in your experience, you filed 
several reports where the culture or the Coast Guard reported 
back that it is not a problem. It wasn't until you filed your 
complaint to the--to the Inspector General that action that 
resulted in a fair treatment happened.
    Is that correct?
    Ms. Young-McLear. That is correct.
    Chairwoman Maloney. So, three times you went through the 
process. Do you think it would be an improvement if you went to 
the IG right away instead of waiting five years or four years 
before----
    Ms. Young-McLear. Yes. Based on what happened in my 
particular case, I thought that working with the Inspector 
General's office was professional. They had the right 
credentials and expertise and the outcome was certainly 
favorable.
    The Coast Guard processes were the exact opposite and if I 
had to do it over again and if I had known about the Inspector 
General's office at that time, I would have filed sooner with 
the Inspector General's office.
    Chairwoman Maloney. But you could only file through the 
Inspector General's office until you had been retaliated 
against. As I understand it, you can only file to the IG's 
office for that, for harassment and bullying--well, let me ask 
you, Inspector General.
    Is that correct? Could she have filed a harassment case 
with your or a bullying case to the IG's office or just a 
retaliation case?
    Mr. Eaton. You can file complaints of any sort, in a sense, 
against--excuse me, you can file complaints to the DHS OIG for 
any misconduct--waste, fraud, and abuse--including 
discrimination. However, we don't necessarily take every case.
    So, a complaint like that might get referred back to the 
Coast Guard for action. If it is a case of retaliation that is 
a complaint that we have a specific unit, our whistleblower 
protection unit, which handled this case that can look at that.
    Chairwoman Maloney. Lieutenant Commander, if the IG had 
referred back your harassment case and bullying case, would 
that have made your life better or worse?
    Ms. Young-McLear. Worse.
    Chairwoman Maloney. Worse. So, we have a problem here where 
the system is not working and if she files she could be 
retaliated again even more.
    I have got to tell you, I admire you and I thank you for 
coming forward, and I want to ask you what gave you the 
strength to fight the Coast Guard for five years for just 
treatment? Most people would have left.
    So, you have tremendous courage and that is maybe one of 
the reasons why the retention numbers are not good in the Coast 
Guard--that people just leave if they feel they are not treated 
fairly.
    But you fought back. What gave you the strength to fight 
back so effectively?
    Ms. Young-McLear. My faith, love and support of my family 
and my wife, cadets. I just know in my heart that the future 
can be better. But it is going to require us to acknowledge or 
recognize it and fight for it.
    So, I don't actually see it as I am fighting the Coast 
Guard. I see it as I am fighting for a better Coast Guard.
    Chairwoman Maloney. Thank you, and I yield back.
    And the next is Mr. Katko from the great state of New York.
    Mr. Katko. Great state indeed. Thank you very much.
    I am troubled by what I hear but I am also--I also think it 
is important to have this public hearing to discuss the issue, 
and you can't fix a problem until you raise the awareness and 
that is what you are doing today, all of you, and I commend you 
for doing that.
    I have had nothing but great experiences with the Coast 
Guard over my 20-year career as a Federal prosecutor, 
especially my time in Puerto Rico. They were integral parts of 
what we did for organized crime and our parking lot at the U.S. 
Attorney's Office in Natorre was loaded with fast boats and 
things the Coast Guard seized from boats coming directly over 
from Colombia, which is only 500 miles away.
    So, I know the value of the Coast Guard and it its 
importance to our national security and the security of our 
country. So, for you and all the other members out there that 
are members of the Coast Guard, I want to thank you for your 
service and tell you to keep chugging.
    I am also glad to hear, Lieutenant Commander, that you are 
at CISA. I am chair of the Homeland Security Cybersecurity 
Subcommittee, or ranking member, and that is a critically 
important component of homeland security and I am glad to see 
people of your caliber are there and we need you there and I 
hope you want to stay there for a while because it is very, 
very important what you are doing there.
    I am trying to get a feel for a couple of things. I want to 
talk about whether you have seen--what you have experienced at 
the Academy to your detriment is--is it confined to the Academy 
itself or is it a broader problem within the Coast Guard?
    I know you have been in other posts besides that. So, can 
you tell me what your take is on that, whether it is just the 
Academy where the problem is or is it a pervasive problem?
    Ms. Young-McLear. Yes, sir. So, from my experience, I have 
been in the Coast Guard for 16 years and before I was stationed 
at the Coast Guard Academy I was involved in a lot of diversity 
and inclusion initiatives.
    When I actually reported to the Coast Guard Academy in 
2014, there wasn't a Leadership Diversity Advisory Council, or 
an LDAC, stood up.
    The charter of the LDAC that was mandated Coast Guard wide 
in 2011 and it basically stated it is a group that is chartered 
to assess the climate and provide advice to the command on how 
to improve the climate.
    So, it was just one of the indicators that I noticed that 
was lacking at the Coast Guard Academy, which was supposed to 
be a leadership hub for the entire service.
    But I can say without a doubt and without hesitation that 
it is pervasive across our service. I am not saying that every 
individual in the Coast Guard experiences harassment. I am not 
saying it is pervasive in every unit.
    But I think we have to lead from a systemic perspective. 
So, at the Coast Guard Academy I was--in my chain of command 
there was an assistant superintendent, one-star admiral. The 
commanding officer is a two-star admiral.
    We have a board of trustees led by predominantly admirals 
and senior Executive Service civilians. Above that we have 
deputy commandant of mission support, which is a three-start 
admiral, and so on.
    So, if you really look at what are the behaviors and how 
did people actually respond to my allegations, it far exceeds 
the Academy just in my singular case alone.
    Then you really kind of look at that across the board and 
you say, well, if it is happening to a lieutenant commander who 
has her Ph.D., who worked for the deputy secretary, and so 
forth, who is passionate and dedicated, how are--how are we to 
say that it is not happening to other people who don't have the 
financial resources, who don't understand the convoluted EEO 
processes and the bullying processes, who don't have the 
psychological support, the family support, and so on?
    So, since the OIG report has been released, dozens of 
people have contacted me articulating that it is not isolated 
to the Coast Guard Academy, and just from my own personal 
experience serving in the Coast Guard for 16 years on what I 
have seen.
    So, I want to definitely be clear that I am not here to 
solely speak about the negative experiences I have had. But I 
have also been privy to a lot of the initiatives that I am 
confident Vice Admiral McAllister is going to be testifying 
about because I have been on the forefront of a lot of those 
initiatives.
    In my opening statement I talked about it was routine for 
admirals to contact me to seek out my opinions and advice on 
our culture and that is--literally, a couple of days ago I got 
an admiral from--an email from a two-start admiral asking about 
what can we do to improve our culture and foster a little bit 
more transparency.
    So, just from that lens alone, I have been privy to 
initiatives at Coast Guard headquarters. I have mentored 
officer candidates through OCS, through our program, attending 
HBCUs, and so on.
    So, I am passionate about our service. I am passionate 
about our work force. And through those avenues I can say 
without a doubt that we have some cultural issues and we have 
to get to the bottom of why we have so many senior executives 
that are disregarding factful information and they also know it 
is actually causing harm to our people.
    Mr. Katko. Thank you. That is an excellent summary and it 
gives us a good idea of what is going on.
    I know I am going to be out of time and, unfortunately, I 
am not going to be here for the second panel. So, I hope one or 
more of my colleagues delve into this with the next panel.
    I will note the other question I wanted to ask and hope one 
of my colleagues does ask it is, Mr. Eaton, I think you noted 
during your testimony that four or five--at least one of the 
recommendations had not been implemented yet and perhaps 
someone can ask that question and tell us why it hasn't been 
implemented.
    And with that, I yield back. Thank you.
    Chairwoman Maloney. Thank you.
    The chair recognizes the chairman of the Homeland Security 
Committee, Representative Thompson.
    Chairman Thompson. Thank you, Madam Chairman.
    I think everyone on this panel agree that harassment, 
bullying, and retaliation is illegal. It is against the law, 
very clear.
    As I look at the composition of this panel, I would venture 
to say the majority of us wouldn't be here if it were not for 
civil rights and other kind of laws on the books. That is a 
fact of who we are.
    Women wouldn't be able to vote had it not been for an 
opportunity to have a nation of laws to institute a lot of 
these things.
    So, Lieutenant Commander, a reference was made earlier to a 
partnership between the Coast Guard Academy and the University 
of Southern California, and part of that report talked about 
black and African-American cadets disproportionately have a 
high share of disciplinary actions.
    Are you familiar with any of that?
    Ms. Young-McLear. Yes, I am, Congressman. I actually was on 
the original group that came up with the indicators to do the 
prework for that report.
    Chairman Thompson. OK. So, you are familiar with it.
    So, what about the findings of that report in general about 
the status of minority cadets at the Academy? Were they treated 
differently or anything like that?
    Ms. Young-McLear. Yes. The data that was in the Vital Signs 
report is consistent with the observations that faculty and 
staff have been making for quite a long time.
    Chairman Thompson. So, to your knowledge, based on what 
that report said, are you aware of any substantive undertakings 
the Academy did to institute some corrective action?
    Ms. Young-McLear. So, at the Coast Guard Academy, they do 
have an equity task force that was chartered, I believe, by 
Admiral Rendon shortly after the report was released.
    And I want to kind of differentiate between a couple of 
different concepts. So, the report was looking at equity data 
specifically for cadets and it was a Vital Signs report. It 
wasn't a full equity scorecard, meaning that if you are looking 
at the ecosystem of the Coast Guard Academy it excluded 
faculty. It excluded staff.
    If you are enlisted in an admin shop, for example, your 
data was not included. My data as an officer was not included.
    So, with that said, I challenged the group to really think 
about what are the root causes of what is creating these equity 
gaps, because if we don't understand, for example, how climate 
or retaliation, harassment, those types of behaviors are 
contributing to equity gaps, then you are not going to know how 
to actually solve it.
    Chairman Thompson. So, and I--what I am getting to is that 
there was some documented evidence that something was wrong at 
the Academy.
    Ms. Young-McLear. Yes.
    Chairman Thompson. To your knowledge, after that documented 
knowledge was made available, what issues did--are you aware of 
that other whistleblowers had to endure?
    Ms. Young-McLear. I am sorry. Are you----
    Chairman Thompson. Well, I guess the question is are you 
aware of other whistleblowers at the Academy.
    Ms. Young-McLear. I understand. So, the Vital Signs report 
collected data from 2015 to 2018. During that same exact time 
period is when we have had an extraordinarily high amount of 
climate issues at the Coast Guard Academy on both faculty, 
cadet, and staff areas.
    Just one example, there was a company officer that used a 
racial slur and there were other instances that occurred. So, 
it is not unreasonable to connect the climate incidence of 
harassment with also the equity gaps that were occurring at the 
same time.
    Chairman Thompson. Mr. Eaton, are you aware of any other 
whistleblower complaint filed against the Academy?
    Mr. Eaton. I don't want to talk about what investigations 
we may have under investigation. But----
    Chairman Thompson. Yes? I am saying yes or no.
    Mr. Eaton. I am not aware of any.
    Chairman Thompson. You are not aware of any? OK.
    So, with your report, you have indicated that three of the 
four items the Coast Guard has corrected. Am I correct? Your 
recommendations.
    Mr. Eaton. That they have implemented them. Yes, sir.
    Chairman Thompson. All right. Tell the committee exactly 
what those three were.
    Mr. Eaton. The first was to correct Lieutenant Commander 
Young-McLear's negative OER. They corrected those numerical 
scores.
    The second recommendation was that commanders should be 
required to document their decisionmaking when making findings 
and outcomes memos. That has been implemented both through 
service wide announcement and updates to training slides.
    And third, we recommended the Coast Guard require 
supplemental training into discrimination, harassment, and 
bullying policies, how to handle those types of allegations, 
and the importance of discretion in handling those allegations, 
and that has also been implemented through a service wide 
announcement and updates to their training materials.
    Chairman Thompson. So, your testimony is that all that has 
been done?
    Mr. Eaton. They have--they have met our recommendations--
our specific recommendations. Yes, sir.
    Chairman Thompson. Well, Lieutenant Commander Young-McLear, 
are you familiar with those recommendations?
    Ms. Young-McLear. I am familiar with the recommendations. 
Yes, sir.
    Chairman Thompson. Are they presently, to your knowledge, 
being adhered to?
    Ms. Young-McLear. Not all of them, to my knowledge. So, 
with respect to my Officer Evaluation Report, the 
recommendations did say to address the numerical scores. The 
evaluation is actually a two-part. There is a written narrative 
that I have also requested to have corrected.
    And with respect to the training, the only online training 
I am familiar with was for anti-harassment and, by definition, 
that is a protected class.
    Bullying is not a protected class, and since my case 
specifically dealt with a lot of bullying and one of the 
members had mentioned that my case could potentially be used as 
a case study, so having gone through years of this type of 
abuse the training that the Coast Guard implemented online is 
woefully inadequate and I am convinced to this day that people 
in the Coast Guard actually don't know the difference between 
bullying and harassment.
    Chairman Thompson. Thank you.
    I yield back, Madam Chair.
    Chairwoman Maloney. Mr. Cleaver is recognized for five 
minutes.
    Mr. Cleaver from Missouri?
    Mr. Cleaver. Thank you, Madam Chair.
    I have been here for 14 years, 15 in January, and I have 
never gotten into an argument at a committee and I don't scream 
at people. I don't like, you know, getting into this back and 
forth.
    I do feel compelled to say that I, like most Members of 
Congress, have never gone to an impeachment hearing. I am here 
every day. I live across the street. I walk over here every 
day.
    I have never even seen a complete hearing on television 
because, like most Members of Congress, we are working, trying 
to do our jobs.
    And so I don't want those of you here to assume that we are 
consumed by impeachment. I don't--I don't even know where they 
are holding hearings. I am assuming in--over in Longworth 
somewhere. I don't--whatever. I don't--I am not there.
    And so I don't want anybody thinking, you know, that we 
don't have time to do anything else. We do. We are doing 
something now, and we also passed the Equality Act, Paycheck 
Fairness Act, Save the Internet Act, Enhancing Background 
Checks--my bill, which would limit what debt collectors can do 
to debtors.
    And my second statement is I can have some sympathy for and 
express some compassion on allegations just simply because of 
what I have been through with my staff experientially.
    I have a member of my family who was raped in the Army. 
Three years ago I was--I couldn't even say that publicly, and I 
saw what happened to her. It took 10 years, most of those with 
expensive therapy, before she got justice and she watched while 
she was--her life was in--you know, in mass confusion--the 
person who had done this to her be elevated to captain.
    And so after sitting here for a moment, I thought maybe I 
will need to leave because I am--I get too emotional about 
this. And so forgive me if I am coming across like that but I 
don't think that I will ever, and I hope my colleagues would 
note, and I believe that they will as well never just 
automatically assume that a complainant is somehow mistakenly 
looking at situations and, you know, they just need to try to 
get it cleared up in their heads.
    So, well, nobody said that in here. But I have been dealing 
with this in my family and so I know what is sometimes said.
    My final statement that--actually I guess it is more of a 
question--I know, Lieutenant, that there are things that, you 
know, you would like to make sure we hear. Is there anything 
that you would like for us to hear that you have not been 
asked?
    Ms. Young-McLear. Yes, and thank you for that, and I am 
definitely sorry to hear about what happened with your family 
member.
    Throughout this horrible journey since 2014, there has been 
kind of this tone within the Coast Guard of what happened to me 
was isolated and there has been this dismissive tone, and the 
more I elevated these allegations and incidents were escalating 
the more the Coast Guard uses authority to retaliate and harm 
me, all the while saying after the OIG report came out in 
December that it was isolated.
    So, what I really wanted to take a moment just to say is 
that it is not isolated and it is happening across the Coast 
Guard, and one of the reasons why I chose to come forward 
publicly is because I knew that there were other people out 
there than I had even met myself through just mentoring and 
different types of outreach.
    And since coming public this past summer a lot of people 
have contacted me and there is a couple of people I actually 
want to acknowledge by name and they have asked me to do so. 
So, I am just going to take a second.
    I did want to publicly acknowledge Rhonda and Paul Mozingo. 
They are parents of William Mozingo. He was a fireman 
apprentice in the Coast Guard and recently discharged, and they 
actually set up a support group for families on Facebook to 
make sure that folks on the enlisted side are--they have an 
outlet to deal with hazing and bullying. So, I want to 
acknowledge them for their efforts and everything that their 
family has gone through.
    And I also want to acknowledge Katie Hazelwonder, who spent 
time--seven hours, I believe--driving here directly to be here 
in this room today.
    But those are just two examples of folks that have been 
through a lot, folks who are dedicated, who care about this 
country and, unfortunately, because of our culture and our 
processes, they will never really be afforded the opportunity 
to sit in this seat and to speak.
    So, I just wanted to acknowledge that there are many 
survivors out there and my case is an example in so many ways 
on what we need to learn from it to make sure it doesn't happen 
to anybody else.
    Mr. Cleaver. Thank you, Ms. Chairman.
    Chairwoman Maloney. Ms. Kelly of Illinois is recognized.
    Ms. Kelly. Thank you, Madam Chair, and thank you to the 
chairs and the ranking members for holding this subcommittee, 
and thank you to the witness for your courage and your 
advocacy.
    On February 3, 2018, the deputy commandant from Mission 
Support at Coast Guard headquarters received an allegation that 
the head of the management department had bullied another 
employee in the department.
    The civilian Coast Guard employee that investigated this 
other complaint submitted a memorandum to the deputy commandant 
on March 26, 2018.
    The investigator stated that the management department had, 
quote, ``exercised poor judgment and unprofessionalism in his 
interaction with the other department employee.''
    On April 10, the deputy commandant began discussing the 
investigation with then superintendent of the Academy. They 
discussed a final action memo and an administrative letter of 
censure.
    The updated unsigned letter of censure was addressed to the 
department head and attached to an April 11 email from the 
deputy commandant to the Academy superintendent.
    The letter of censure read, in part, that the management 
department head is, quote, ``hereby censured for his failure to 
exercise the judgment and leadership expected of a senior 
officer.''
    It added, and I quote, ``The information uncovered during 
the administrative investigation is particularly troubling in 
light of the recent history of allegations regarding poor 
climate in the management department.''
    Mr. Eaton, did the Inspector General's office contact Coast 
Guard attorneys to request an interview with the Academy 
superintendent on April 19?
    Mr. Eaton. Without identifying the particular identity or 
position, we did contact the Academy on April 19, 2018, 
requesting interviews from several officials.
    Ms. Kelly. And according to your report, and I quote, ``The 
Academy staff judge advocate was informed of those interviews 
no later than April 20, 2018.'' Is that correct?
    Mr. Eaton. That is correct.
    Ms. Kelly. The same day, April 20, the deputy commandant 
sent a final action memo to the former Academy superintendent 
regarding the department head. It stated that the department 
head's actions, and I quote, ``constituted bullying.''
    I note that the deputy commandant who found bullying in 
this case is the same official who found that Lieutenant 
Commander Young-McLear had not been bullied, even though an 
investigator who examined the lieutenant commander's case found 
evidence that bullying had occurred.
    The day after the Academy's legal office was informed that 
the Inspector General's office was investigating possible 
whistleblower retaliation on April 21, the lieutenant 
commander's transfer from the management department was made 
permanent.
    Mr. Eaton, on April 23 did the Inspector General directly 
contact the dean and other officials at the Academy to request 
an interview?
    Mr. Eaton. We did contact at least two officials on that 
date.
    Ms. Kelly. According to the documents reviewed by the 
committee, the next day on April 24 the dean requested and 
former superintendent approved the removal of the management 
department.
    So, for nearly three years no adverse action was taken 
against the person who Lieutenant Commander Young-McLear 
accused of harassment and bullying, even though an investigator 
found bullying had occurred.
    Then one day after Academy leadership was notified of an 
Inspector General's investigation, the department head was 
relieved of his duties.
    The committees also found no evidence that the letter of 
censure was ever executed or provided to the department head.
    I am glad the Coast Guard finally took action but I hope it 
does not always take an investigation by the Inspector General 
for the Coast Guard to take action on substantiated harassment 
and bullying.
    And I yield back my time.
    Chairwoman Maloney. OK.
    Mrs. Coleman--Representative Coleman from New Jersey?
    Watson Coleman?
    Mrs. Watson Coleman. Thank you very much, first of all, 
Lieutenant Commander. Let me commend you, thank you, for your 
bravery, your courage, and your love of this country that you 
would stand up the way you have.
    Let me just say that from everything that I have heard and 
everything that I have read thus far, the Coast Guard does have 
a problem in both the Academy and perhaps in its--in the other 
areas.
    I looked at the statistics with regard to the 
underrepresentation of African Americans in particular as a 
member of the class and then I see that they are 
disproportionately disciplined.
    I look at the underrepresentation of minorities in 
particular in the faculty and staff, and it is very concerning.
    You filed a discrimination complaint at some point, did 
you?
    Ms. Young-McLear. Yes, I did.
    Mrs. Watson Coleman. Was it based on your race, your sex, 
and your marital status?
    Ms. Young-McLear. Yes, and also prior EEO activity.
    Mrs. Watson Coleman. And was it ever investigated separate 
and apart from the harassment complaints and the bullying 
complaint? Was there a parallel investigation taking place at 
any point?
    Ms. Young-McLear. Yes. It started in parallel and 
ultimately the Coast Guard civil rights directorate they have a 
contractor who does those investigations. So, I also did that 
process as well.
    Mrs. Watson Coleman. And so what happened as a result of 
your discrimination complaint--your EEO----
    Ms. Young-McLear. So, I received the final agency decision 
back, which said that I did not provide enough evidence to 
substantiate my case, and then I also filed a DHS civil rights 
appeal and that was later denied.
    Mrs. Watson Coleman. And so do you have any other avenues 
of appeal of that?
    Ms. Young-McLear. No. That was it.
    Mrs. Watson Coleman. And who made these decisions? Who made 
these findings that you had insufficient evidence?
    Ms. Young-McLear. So, the Coast Guard findings were made by 
the head of civil rights. So, that would be Ms. Terry 
Dickerson, and then for the DHS civil rights that would be by 
Ms. Veronica Venture.
    Mrs. Watson Coleman. You are currently working for the 
Department of Homeland Security and Cybersecurity.
    Ms. Young-McLear. Yes.
    Mrs. Watson Coleman. Is that where you want to be?
    Ms. Young-McLear. Yes. Yes.
    Mrs. Watson Coleman. Do you not--you do not want to go back 
to the Academy to teach?
    Ms. Young-McLear. I actually do want to go back to the 
Coast Guard Academy. I am very passionate about education and 
being a role model and I believe in our future generation. So, 
I will be returning to the Coast Guard Academy.
    Mrs. Watson Coleman. Do you know that that is going to 
happen?
    Ms. Young-McLear. Yes. I am on a two-year detail so I will 
be reporting back in the summer of 2021.
    Mrs. Watson Coleman. Are any of the people that were 
responsible overseeing your--part of your agency going to be 
there that were there?
    Ms. Young-McLear. When I return back?
    Mrs. Watson Coleman. Yes.
    Ms. Young-McLear. Yes. Some of them will still be there.
    Mrs. Watson Coleman. To your knowledge, have any of them 
had the opportunity to be trained or admonished or held 
accountable?
    Ms. Young-McLear. To my knowledge, nobody has been held 
accountable for the years of abuse that I sustained.
    Mrs. Watson Coleman. To your knowledge, has there been any 
sufficient training on how you would acknowledge and respond to 
cases that are filed based on race, creed, color, national 
origin, ancestry, sex--all that stuff that is in the civil 
rights laws?
    Ms. Young-McLear. To my knowledge, no, and I would also add 
that there has been misinformation in Coast Guard's civil 
rights training delivered on the campus itself.
    Mrs. Watson Coleman. Mm-hmm. With that in mind, Mr. Eaton, 
did you all make recommendations about training in that area? I 
recalled you saying you did.
    Mr. Eaton. Our specific training recommendations were that, 
first of all, that there should be supplemental training 
required for Coast Guard members on the policies of 
discrimination, harassment, and bullying.
    Mrs. Watson Coleman. And what about discrimination based on 
your race and your sex and your--you know, those things under 
the Civil Rights Act?
    Did you--did you have any findings and recommendations with 
regard to that? Because it seems to me that that is the big 
elephant in this room, and we keep talking about bullying, 
harassing, and things of that nature and we haven't really 
talked about why she was necessarily bullied and harassed?
    Was it her marital status? Was it her race? Was it her sex? 
Have we not dealt with that? That seems to be an illness in the 
Coast Guard that we are not treating. So, did you specifically?
    Mr. Eaton. We did not make specific recommendations for 
race-based discrimination training.
    Mrs. Watson Coleman. OK. Well, you miss a great opportunity 
to do that and I don't know who is responsible for doing that.
    But I think that Congress has a responsibility to ensure 
that there is that kind of training and that kind of 
sensitivity and that kind of oversight and that kind of 
accountability because those things exit, and Lieutenant 
Commander was not bullied because she existed.
    She was bullied and harassed for reasons that are related 
to who she is, what she is, and what the law says she is.
    I yield back.
    Ms. Ocasio-Cortez.[Presiding.] Thank you. The chair now 
recognizes Ms. Demings of Florida.
    Mrs. Demings. Thank you so much, Madam Chair, and to our 
witnesses, thank you so much for being here.
    Lieutenant Commander, it is good to see you again.
    Let me just preface my questions with this. I believe that 
I worked with some of the finest men and women in law 
enforcement. The overwhelming majority of the work that they 
did was exemplary.
    But you know what? Sometimes we messed up. Sometimes we 
didn't get it right. Sometimes we failed, and there were 
sometimes when the policy as written failed us. And regardless 
of what happens, whether it is policy or individual, we have an 
obligation to try to get it right.
    Lieutenant Commander, as you have already indicated, we are 
all proud of the Coast Guard. We don't need to justify that 
today.
    I am from Florida. We are all proud, and providing 
oversight does not mean that we are abandoning the men and 
women who we depend on.
    Providing oversight gives us the opportunity to identify 
strengths and deficiencies and, believe me, we have an 
obligation to do both.
    So, I thank you for being here today and I hate to say that 
I thank you for your courage because we ought to create an 
environment where people who have been wronged don't have to be 
courageous as we know it to come forward.
    But in the environment that we have contributed to here in 
Congress, today's world, I thank you for your courage in coming 
forward because, as you well know, it is not just about you. It 
is about the men and women who will follow you.
    So, I know we have already discussed it but let me go back 
to Lieutenant Commander. So, in March 2016, you raised 
allegations of harassment that were handled under the Coast 
Guard's anti-harassment process. Is that correct?
    Ms. Young-McLear. That is correct.
    Mrs. Demings. A preliminary inquiry of those allegations 
found that, and I quote, ``This preliminary inquiry does not 
afford sufficient detail or depth to fairly conclude whether or 
not prohibited harassment has occurred.'' Is that correct as 
well?
    Ms. Young-McLear. That is correct.
    Mrs. Demings. The individual who conducted the preliminary 
inquiry recommended that an investigation of your allegations 
be conducted. Is that correct?
    Ms. Young-McLear. That is correct.
    Mrs. Demings. Instead, however, an admiral convened a 
climate and culture investigation of the department in which 
you worked. Is that correct?
    Ms. Young-McLear. That is correct.
    Mrs. Demings. Mr. Eaton, according to your report, the 
climate and culture investigation, and I quote your report, 
``was not an equal substitute for an investigation into 
complainant's specific allegations.'' Is that correct?
    Mr. Eaton. That is correct.
    Mrs. Demings. Your report also stated that the manner in 
which the investigation was conducted raised questions about 
the depth and objectivity of the fact finding. Is that correct?
    Mr. Eaton. That is correct.
    Mrs. Demings. The committee's investigation examined how 
the manner in which the climate and culture investigation was 
conducted lacked depth and objectivity. Is that correct?
    Mr. Eaton. I am not familiar with the committee's 
investigation.
    Mrs. Demings. The investigation found that the department 
head accused of bullying--the allegation that was supposedly 
under investigation and the climate and culture survey was 
involved in scheduling interviews on behalf of the 
investigating officer with department personnel. Is that 
correct?
    Mr. Eaton. We received testimony that he was--I think he 
was one of the witnesses where it is, quote, ``lingering'' in 
the department space where those interviews were taking place.
    Mrs. Demings. Lieutenant Commander, were there other ways 
in which the climate and culture investigation seemed to lack 
depth and objectivity? Could you explain some of those other 
ways that you believe it lacked depth and objectivity?
    Ms. Young-McLear. Yes, and just to clarify, when I was 
initially briefed by the dean on the outcome of the April 2016 
investigation, I was told verbally that it was not 
substantiated.
    I did not find out through other means down the road of 
what the memorandum actually said. So, I actually asked the 
dean what was the purpose of doing the culture and climate 
investigation if my allegations were to be unfounded, and he 
didn't really provide me an answer.
    Other ways in which the culture and climate administrative 
investigation was inadequate, and I have stated this before, 
but it was a humiliating process.
    The department is approximately 13 people and it is not 
difficult to figure out who is who, even if you don't use 
people's names.
    So, it was incredibly humiliating and intimidating for a 
one-star admiral to come in after the April 2016 investigation 
was flimsy and inadequate.
    My witnesses were not interviewed and he revealed--the 
admiral revealed confidential information from my resolution 
agreement and he basically suggested that it was going to be a 
superficial investigation.
    He looked forward to us getting back to work. So, I already 
knew that the investigation was going to be substandard and it 
was also humiliating on top of that, and that also further 
drove into mental health challenges that I had and at that 
point I was already enduring two years of abuse.
    So, not only was it inadequate but it was humiliating. It 
was demeaning and it was completely unnecessary, and had the 
Coast Guard actually invested the resources to do an effective 
and proper and thorough investigation the first time I never 
would have been subjected to all the years of abuse after that.
    Mrs. Watson Coleman. Thank you so much. I am out of time 
and I yield back.
    Ms. Ocasio-Cortez. The chair now recognizes Ms. Norton of 
the District of Columbia.
    Ms. Norton. Thank you very much, and I would like to say to 
you, Lieutenant Commander, that your courage in coming forward 
deserves change enacted from this committee.
    And I would also like to say that you should notify us if 
you experience any retaliation as a result of coming forward 
here today.
    I am a former chair of the Equal Employment Opportunity 
Committee and I have been trying to understand how the Coast 
Guard handles complaints, and I must tell you all I see is a 
lack of due process.
    Before I came to the commission, sexual harassment or 
harassment, as we call it, was not even noted as a violation of 
Title 7. We had the appropriate hearings and there are now 
thousands of complaints that come and this is, of course, on 
the civilian side at the--every year.
    So, I am really perplexed. This so-called service--sorry, 
civil rights service provider--here is this person who, as I 
understand it, is the intake for civilian equal employment and 
military--equal employment cases. Is that not the case?
    Mr. Eaton. We didn't get into that level of detail. We 
weren't, Congresswoman, taking a look at the broader----
    Ms. Norton. Well, here is what--here is what we have found 
in the Civil Rights Manual--that they are required to assist 
commands, employees, and military members--all three--in 
complying with the procedures outlined in the anti-harassment 
policy.
    So, let me ask the lieutenant commander. Was it ever a 
challenge that the same civil rights provider was providing 
information on the anti-harassment process to both you and the 
command at the same time?
    Ms. Young-McLear. Yes. The position of the civil rights 
directorate and civil rights providers they are supposed to be 
neutral. But I did perceive times where I felt that it was not 
neutral.
    Ms. Norton. There is the person who is in charge and then 
you are talking to somebody who has alleged harassment. I begin 
to see that the committee has a due process challenge and that 
goes to structural issues beyond the individual who may be 
involved.
    Did the civil rights provider ever discuss with you the 
reaction to your allegations expressed by the Coast Guard 
admiral who was responsible for handling the complaint?
    Ms. Young-McLear. Yes, he did.
    Ms. Norton. What did--what did he say?
    Ms. Young-McLear. He expressed that after I filed a 
complaint it would have been around May 2016 that the one-star 
admiral had come into his office, seemed agitated and upset and 
was pacing his office, frustrated that I had entered into the 
process.
    Ms. Norton. Did you go to the same civil rights provider to 
discuss filing a military equal opportunity complaint?
    Ms. Young-McLear. Yes. That is the same person.
    Ms. Norton. That is the same person? I want to note for the 
committee that the admiral who was in charge of resolving one 
of the lieutenant commander's allegations stated that he had 
found it, and here is his words, ``awkward to have the same 
individual providing information to both complainant and 
command.''
    He recommended, and here is what the admiral recommended, 
``I think the Coast Guard would be well served to create a EE 
specialist cadre that serves the command and, more importantly, 
an EE specialist cadre that are supportive and serve the 
complainant separately to make sure their concerns are 
addressed.''
    Do either of you have a reaction to the admiral's 
recommendation?
    Mr. Eaton. No. No, Congressman, I don't.
    Ms. Norton. Even in light of what you have heard, sir?
    Mr. Eaton. I----
    Ms. Norton. And hear it comes from an admiral?
    Mr. Eaton. Our report was looking at the allegations of 
retaliation.
    Ms. Norton. And not at remedies?
    Mr. Eaton. And we identified issues in the course of our 
investigation dealing with many of the problems that you have 
mentioned. But our report did not go further than providing 
recommendations about those issues.
    Ms. Norton. How about you, Lieutenant Commander?
    Ms. Young-McLear. I think their processes are so convoluted 
and there aren't any firewalls between the--I filed multiple 
complaints and that problem was persistent the entire time 
through 2016 and through 2017 as well and I think it is--that 
particular admiral who made that recommendation was also 
intimidating and violated my privacy. So----
    Ms. Norton. Well, maybe he saw that something should be 
done.
    In any case, I think this subcommittee sees that something 
that should be done. So, again, I very much appreciate your 
coming forward.
    And, Madam Chair, I think that if we--if this subcommittee 
doesn't do more than simply expose the problem but doesn't come 
forward with some remedies, then I am not sure what we are here 
for.
    Thank you very much.
    Ms. Ocasio-Cortez. The chair now recognizes Mr. Clay of 
Missouri.
    Mr. Clay. Thank you, Madam Chair.
    Mr. Eaton, the office of the IG has identified several 
instances in which parties named in Lieutenant Commander Young-
McLear's January 2017 complaint discussed her complaint with 
officials at Coast Guard headquarters who were responsible for 
investigating and resolving the complaint.
    You stated in your prepared testimony that these 
interactions created the appearance of improper coordination or 
undue influence by certain senior Academy officials and the 
IG's December 2018 report states that one Academy official in 
particular likely violated the Coast Guard's Civil Rights 
Manual's requirement to respect the confidentiality of 
individuals reporting harassment.
    I would like to briefly go over a couple of the 
interactions that were described in your report and in 
documents that were provided to this committee.
    On July 11, 2017, a person you have identified as Academy 
Official Two emailed another named party in the lieutenant 
commander's complaint, writing that he had heard from another 
official that the case had been completed.
    He wrote, and I quote, ``Do you have any visibility? Just 
wondering if this is possibly (finally) settled.'' Is this an 
accurate description of the email your office reviewed?
    Mr. Eaton. That is correct, sir.
    Mr. Clay. Does this exchange appear to violate the Civil 
Rights Manual's provision regarding confidentiality?
    Mr. Eaton. It appears to likely violate it. Yes, sir.
    Mr. Clay. And was any disciplinary action taken for that 
violation?
    Mr. Eaton. No, sir.
    Mr. Clay. OK. On July 12 of 2017, the same Academy official 
sent another email, which read that he saw headquarters Admiral 
Two, quote, ``in the gym this morning. Like all of us, he is 
frustrated,'' end of quote.
    What is your impression of this exchange?
    Mr. Eaton. It should not have taken place. It likely 
violated----
    Mr. Clay. Yes. Should a--should a named party in a 
harassment and bullying complaint be discussing the complaint 
at the gym with the person in charge of adjudicating the 
complaint?
    Mr. Eaton. No, sir.
    Mr. Clay. You know, all of this sounds real messy and very 
inappropriate. Have you brought it to the attention of the 
hierarchy of the Coast Guard that this is not the norm and that 
this--and that action should be taken to discipline these 
people?
    Mr. Eaton. We have provided the report to the Coast Guard. 
One of our recommendations including--included supplemental 
training on the importance of discretion. We leave disciplinary 
decisions up to the Coast Guard.
    Mr. Clay. OK. So, the Civil Rights Manual instructs 
commanding officers to, quote, ``Respect the confidentiality of 
individuals reporting harassment or providing information 
relating to harassment to the extent permitted by law and 
consistent with good order and discipline.''
    In your experience, why is protecting complainants' 
confidentiality so important?
    Mr. Eaton. In one part, so as not to deter them from coming 
forward and making complaints and also to ensure that not just 
the complainants but everyone else has confidence in the 
integrity of the process.
    Mr. Clay. OK. And to finish up, Lieutenant Commander Young-
McLear, can you add anything to what--to my line of questioning 
and how you viewed and how you felt about this back and forth 
that was going on?
    Ms. Young-McLear. Yes. I think that it just speaks to the 
culture. So, those two individuals are admirals and I want to 
just comment on if certain individuals were held accountable. I 
actually want to add that some individuals were actually 
rewarded.
    So, one of the individuals in the report went on to be 
selected for a prestigious district assignment. So, I want to 
be clear on that aspect.
    So, that ties right back into the culture. Not only are we 
not holding people accountable; we are actually rewarding 
people.
    And I think that is how we have cultures where you have two 
admirals making those types of inappropriate comments, and 
throughout the report it is clear that there is a very 
derogatory tone and attitude, and they simply did not want me 
to continue to exercise my voice to say that this is 
unacceptable.
    So, I think that that reflects, really, the urgency of what 
I am trying to bring forward is because it is not an isolated 
situation and if people are acting that unprofessional and 
causing that much harm with no regard to the value of their 
shipmates, it is not going to stop.
    Mr. Clay. Thank you both for your responses.
    I yield back, Madam Chair.
    Ms. Ocasio-Cortez. The chair now recognizes Mr. Courtney of 
Connecticut.
    Mr. Courtney. Thank you, Madam Chair.
    Again, I just want to start, very quickly, just to foot 
stomp Mrs. Demings' comments about the fact that this hearing 
is not, you know, an attack on the Coast Guard writ large.
    Again, there is strong bipartisan support in the House for 
the mission of the Coast Guard. I co-chair the bipartisan Coast 
Guard Caucus.
    Just a few days ago, 70 of us joined together to write a 
letter to the conferees on the Coast Guard Reauthorization 
Act--Mr. Thompson, I am sure, is one of those--to make sure 
that there is going to be total parity between the Coast Guard 
and the other military branches in the cases of a government 
shutdown, which was an outrage that took place last January.
    However, if there is a problem we just need to face up to 
it and fix it, and that really is what--you know, Lieutenant 
Commander led the way in terms of starting this process and the 
OIG report certainly validated.
    Mr. Eaton, I just want to verify, on Page 6 of your 
testimony today, again, you stated that the OIG is actually not 
finished at this time in terms of their review of Coast Guard 
issues in terms of race-based harassment--that, in fact, there 
is an ongoing investigation that is happening right now. Is 
that correct?
    Mr. Eaton. That is correct. It is, obviously, not a 
whistleblower retaliation investigation. It is a broader 
evaluation of, as you said, race-based harassment at the Coast 
Guard Academy.
    Mr. Courtney. And the plan is to have a report issued 
sometime next year. Is that correct?
    Mr. Eaton. Yes, sir.
    Mr. Courtney. OK. Thank you.
    You know, again, I also, you know, read Admiral 
McAllister's testimony, which we will be hearing shortly and I 
just, again, want to underscore the fact that some of the 
initiatives that are taking place at the Coast Guard Academy, 
which I have personally visited a number of times on a clips 
day and other visits--the equity scorecard, the followup, you 
know, task forces and what not.
    Again, Lieutenant Commander, again, I just want you to talk 
a little bit about the fact that you have been actually 
involved not just, you know, along for the ride but actually in 
a leadership position, is that correct, in those initiatives?
    Ms. Young-McLear. Yes, that is correct, and specifically 
within the engineering department our philosophy is we really 
want to start from the ground up, making sure that people are 
in psychologically safe environments first, and I think that is 
the contrast that we have with the equity task force.
    They are mainly focused on equity and we are actually 
approaching it more from a grassroots perspective to make sure 
that the climate is safe for everybody first.
    Mr. Courtney. Well, thank you for mentioning the 
Engineering Deans Initiative, which, again, as you point out, 
is really sort of an organic coming together of faculty and 
cadets in terms of trying to address this issue.
    I know the--Dr. Zelmanowitz is here from the engineering 
department in the second row and, again, had the opportunity to 
visit with you--the effort that is happening there.
    Again, can you talk about sort of the approach of that 
initiative, which, unfortunately, is not mentioned in Admiral 
McAllister's testimony?
    Ms. Young-McLear. Yes, absolutely.
    So, the framework--basically, the foundation is in 
psychological safety. So, No. 1, everyone deserves to be 
treated with dignity and respect and do people feel safe, safe 
being their authentic selves, safe speaking up against 
wrongdoing.
    If, at a minimum, we do not have that, no initiative on 
diversity and inclusion is going to work. It will fail and it 
will actually probably harm people because it will come across 
as superficial and people may resent why we are even doing it.
    The next phase above that is focusing on moral courage. So, 
I note many of the members today have spoken about my 
particular courage, and it shouldn't be on my shoulders alone 
and many of the folks who are here in this room.
    It is about how do we--how do we create a culture where it 
is safe to speak up, it is not taboo, and that is in align with 
our professional duties when we take that oath.
    And the next layer above that is inclusion--diversity and 
inclusion--sorry, diversity and equity, mission performance, 
mission readiness, and then innovation.
    So, it is, basically, started from the ground up, making 
sure that everyone is treated well and I believe that if you 
treat everyone with dignity and respect you are going to 
attract diverse groups of people.
    But if you try and artificially force diversity, you are 
not going to get inclusion. You are going to end up with 
resentment and probably toxic work environments.
    Mr. Courtney. And how is the uptake in terms of 
participation?
    Ms. Young-McLear. So, far it is great. We have four action 
teams led by our engineering dean and it is just--personally, I 
mean, it is one of the highlights because we are engineers but 
we like solving problems.
    And so we take that very seriously and it also puts us on 
par with other engineering colleges across the country to tap 
into those networks as well.
    Mr. Courtney. Well, again, I just wanted to really 
spotlight that work that you and the dean are doing--that, you 
know, your approach to this is really not just sort of, you 
know, pointing fingers and not trying to be part of the 
solution.
    In fact, you are part of, I think, really a very promising 
effort to get to the core of the issue that we are talking 
about today.
    Ms. Young-McLear. Thank you. And if I could just quickly 
add, I am also plugged into diversity and inclusion efforts at 
Coast Guard headquarters as well. The Coast Guard--we just 
awarded a contract for diversity and inclusion training.
    There is going to be, basically, a coaching program and I 
actually helped write input into the statement of work for that 
to make sure things like psychological safety are included and 
I actually had a chance last week to actually audit one of 
their modules.
    And one of the things that I tried to just emphasize with 
that pilot group is to not be afraid to be critical and to 
self-examine our own culture, and if we don't understand our 
culture, we don't understand our history, we are not going to 
make progress.
    It is just going to be superficial. So, I just wanted to 
add that it is not just efforts at the Coast Guard Academy. I 
have been in the Coast Guard for 16 years and I have always 
been passionate about how we can create healthy thriving work 
environments so that we can effectively do our mission and be 
innovative.
    Mr. Courtney. May I make two quick clarifications for the 
record for earlier questions? Earlier, I indicated that the 
supplemental training that we recommended in handling these 
types of complaints was for all Coast Guard service members. It 
is for Coast Guard managers.
    I also wanted to clarify that in response to an earlier 
question about referring complaints to--back to DHS and back to 
components for investigation that we only do that after 
receiving consent from the complainants to do that.
    Ms. Ocasio-Cortez. Thank you.
    And I would like to recognize myself for five minutes of 
questioning.
    Lieutenant Commander Young-McLear, thank you so much for 
coming in and testifying today.
    Mr. Eaton, thank you as well for your testimony and coming 
to answer some of our questions.
    For a very long time it has been the legacy of this 
committee for whistleblowing to be a bipartisan and supported 
activity because without whistleblowers we cannot maintain the 
integrity of our government activities.
    That is how we are able to ensure that every single branch 
and every single office under our Federal administration 
conducts itself with the utmost integrity and that we live our 
values in the work that we do.
    As we have discussed, the Inspector General's office 
confirmed that Lieutenant Commander Young-McLear suffered 
retaliation for raising allegations of harassment and bullying.
    And, Lieutenant Commander, once again, thank you for 
sharing this story and for bringing this pattern of behavior up 
to us.
    Mr. Eaton, this past September your office released another 
report of investigation that substantiated retaliation against 
Coast Guard officers for whistleblowing.
    Specifically, your investigation substantiated retaliation 
against a lieutenant commander and a lieutenant assigned to a 
port security unit. Is that correct?
    Mr. Eaton. That is correct.
    Ms. Ocasio-Cortez. Can you tell us, briefly about your 
findings in that case and did whistleblowers in those cases 
also receive unfavorable officer evaluation reports?
    Mr. Eaton. Yes. We did find that retaliation occurred in 
those cases. Like this one, those officers received negative 
evaluations on their OERs.
    There were also other instances of retaliation such as the 
withholding or denial of certain awards or the removal from a 
temporary duty assignment.
    Ms. Ocasio-Cortez. So, this is not just in a matter limited 
to Lieutenant Commander Young-McLear's experience. This seems 
to be something of a pattern and that there are other examples 
of retaliation going on in the Coast Guard?
    Mr. Eaton. That is clear. I guess I should make one 
distinction, that those complaints of retaliation for protected 
communications were not about allegations of discrimination but 
about reporting misconduct by their senior officers.
    Ms. Ocasio-Cortez. I see. And you mentioned earlier that 
the Inspector General also began the review of race-based cases 
at the Academy. What caused and what triggered the IG to begin 
to review that?
    Mr. Eaton. That review was begun independently of this 
particular case, although our evaluators are certainly informed 
by our report and our findings.
    Ms. Ocasio-Cortez. Mm-hmm. So, given that it is happening 
independent of this case, what has caused the IG to look into 
it?
    Mr. Eaton. I believe we have received requests from 
Congress and we have noticed reporting in the media.
    Ms. Ocasio-Cortez. So, there is a pattern of reporting 
about race-based cases and there is a separate pattern of 
reporting of retaliation against whistleblowing. Is that 
correcting?
    Mr. Eaton. I don't know if I would go so far as to 
characterize it a patter, but there has been reporting.
    Ms. Ocasio-Cortez. OK. And could whistleblower retaliation 
cause service members to be reluctant to speak out about 
deficiencies in the Coast Guard?
    Mr. Eaton. Yes.
    Ms. Ocasio-Cortez. So, over a 12-month period the Inspector 
General's office has found that Coast Guard officers retaliated 
against three service members and in all three cases at least 
one of the methods of retaliation was by lowering the Officer 
Evaluation Report.
    That, frankly, is completely unacceptable. What this also 
does is, as the lieutenant commander mentioned earlier, is that 
it could potentially allow some of--some of the worst actors to 
be elevated within a culture, within an office, while we lower 
Officer Evaluation Reports, some of our finest officers being 
relegated to being stuck in their careers.
    Not only is it unacceptable but it has a profoundly 
detrimental effect on the Coast Guard's ability to carry out 
its mission.
    So, clearly, the Coast Guard must take additional steps to 
ensure that service members who blow the whistle are protected 
from this kind of retaliation.
    And so I think that is a huge part of what our job--of what 
our role is here today.
    Lieutenant Commander Young-McLear, you did your job by 
blowing the whistle on this. But we need to do ours and we need 
to make sure that we take this report extremely seriously and 
make sure that we followup along with the Inspector General, 
who has substantiated these reports as well.
    And I know not just speaking for myself but for our 
committee that is exactly what our intention is.
    Thank you all very much.
    Do any other members have additional followup?
    [No response.]
    Ms. Ocasio-Cortez. Great. That being said, the first panel 
is dismissed with the thanks of the committee.
    At this time I would normally be introducing all of our 
witnesses for the second panel but, unfortunately, the 
Commandant Admiral Schultz has declined our invitation to 
appear voluntarily to this hearing and we will not be hearing 
from him today.
    But I would like to welcome our other witnesses.
    You are dismissed. Thank you.
    [Applause.]
    [Pause.]
    Ms. Ocasio-Cortez. The committee now welcomes Vice Admiral 
Michael F. McAllister, deputy commandant for Mission Support at 
the United States Coast Guard.
    Thank you, Vice Admiral, for coming today. It is the 
practice of the committee to swear in our witnesses. So, if you 
could, please, raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witness is sworn.]
    Ms. Ocasio-Cortez. Thank you.
    Let the record show that the witness has answered in the 
affirmative. Thank you.
    And I would like to remind everyone that these microphones 
can be very sensitive. It is very important we speak directly 
into them.
    Without objection, your written statements will be made 
part of the record and, with that, Admiral--Vice Admiral 
McAllister, you are now recognized to give an oral presentation 
of your testimony.

    STATEMENT OF VICE ADMIRAL MICHAEL F. MCALLISTER, DEPUTY 
   COMMANDANT FOR MISSION SUPPORT, UNITED STATES COAST GUARD

    Vice Admiral McAllister. All right.
    Well, good afternoon, Chairwoman Ocasio-Cortez, Chairman 
Thompson, Chairman Correa, Ranking Member Roy, Ranking Member 
Lesko, distinguished members of the subcommittees.
    Thank you for the opportunity to testify today. I would 
like to share a quote from our commandant, Admiral Karl 
Schultz, which was delivered to the core of cadets at the Coast 
Guard Academy, but really applies to the entire service.
    ``The vision of the Coast Guard that I have is that 
everybody should have the right and expectation to come to a 
workplace that values them as an individual, that is inclusive, 
and is absolutely committed to each member's definition of what 
they see as success.''
    I share the commandant's sentiment. Diversity, inclusion, 
and equity are the top--are a top Coast Guard priority and are 
foundational to a ready work force and an essential element of 
our overall effectiveness.
    The entire Coast Guard leadership team is committed to 
championing and maintaining an organizational climate where 
everyone feels safe, valued, respected, and included. Simply 
put, it is a mission imperative.
    Since assuming his role in 2018, Admiral Schultz has 
directed clear and proactive steps to actively improve 
diversity and inclusion within the service.
    Efforts include creating a diversity and inclusion action 
plan, conducting the first holistic study on the recruitment 
and retention of underrepresented minorities in 25 years, 
creating a personnel readiness task force, developing and 
funding work force sustainability initiatives, and revitalizing 
the college student pre-commissioning initiative to better 
attract women and underrepresented minorities into the Coast 
Guard.
    The commandant has also focused his efforts on improving 
diversity inclusion at our assessment points--the Coast Guard 
Academy and Training Center Cape May.
    Today, the Coast Guard Academy has the most diverse corps 
and faculty in its 150-year history and ensuring equitable 
outcomes for all cadets is one of our highest priorities.
    To this end, in 2017, the Academy became the first Federal 
service academy to undertake a comprehensive examination of the 
educational and performance outcomes amongst cadets of 
different racial, ethnic, and gender groups via the Equity 
Scorecard process developed by the University of Southern 
California's Center for Urban Education.
    We worked with the CUE for almost a year to tailor the 
project to the unique needs of a service academy and further 
improve the culture of respect, inclusivity, and equity 
mindedness.
    As a result, in March 2018 a Vital Signs report was 
released and that June the superintendent chartered an equity 
task force to begin to address the report's recommendations and 
to provide a collaborative and holistic review of the equity 
gaps the report revealed.
    The Vital Signs report is one of many assessment tools used 
to examine educational outcomes and formulate improvement 
strategies, and these broad efforts will allow us to improve 
policies, practices, and customs to maintain world-class 
programs and meet our mission of graduating leaders of 
character.
    Building upon these efforts, the commandant issued a 
strategic vision for the Coast Guard Academy in the June 2018. 
This vision establishes clear direction to foster an inclusive 
environment that enables students and faculty to reach their 
greatest potential and to facilitate a climate of respect.
    To these ends, additional oversights were created including 
the deputy commandant for Mission Support, deputy for personnel 
readiness, a two-star admiral responsible for the Human 
Resource Directorate, Force Readiness Command, and the Coast 
Guard Academy.
    Admiral Schultz and the entire Coast Guard senior 
leadership team is taking every step to foster and develop a 
climate that is free from harassment, bullying, and 
retaliation.
    And when incidents do occur, we act swiftly and 
professionally. We take all complaints of harassment, bullying, 
and retaliation seriously and have actively addressed every 
issue that was raised in the Academy whistleblower 
investigation.
    Specifically, we have implemented service wide changes to 
the Coast Guard civil rights awareness training, revised 
procedures requiring commanders to notify the next level in 
their chain of command regarding the findings of all 
harassment, hate, hazing, and bullying inquiries, and we have 
revised policies via official service wide communications 
articulating whistleblower procedures to all personnel, and 
highlighting that a management official may not use their 
authority to take or threat action against a civilian employee, 
candidate for civilian employment, or a military member from 
making protected communications to Members of Congress.
    This work is vitally important, and while we have made 
significant strides to create lasting change, our work is far 
from complete, and I will quote Chairman Correa from earlier: 
``We recognize our shortcomings.''
    Going forward, we have already begun working on ways to 
improve our anti-hate and hate--or anti-harrassment and hate 
instrument process, or what we call AHHI, as well as the 
administrative investigations process as a whole.
    While the policies are still being worked internally, I can 
offer that we are considering providing more robust guidance 
for the selection of investigators and the contents of 
convening orders, as well as giving greater clarity to the 
investigators as they work to create their investigative plan.
    Further, we are working closely with the Department of 
Homeland Security to develop a civil rights and civil liberties 
training module that can be provided to investigators who are 
assigned to investigate claims of harassment.
    Now, as in the past, we appreciate Congress's support in 
helping us to identify areas where we need to improve, where 
are policies are unclear or where our policies are not meeting 
the needs of our work force.
    Moreover, your expertise and insights are invaluable as we 
work to build an inclusive and diverse Coast Guard Academy.
    Particularly, we would welcome opportunities for direct 
engagement through the Coast Guard Academy Board of Visitors so 
that we can best collaborate to foster an environment that is 
free from discrimination, harassment, and other unacceptable 
behaviors.
    Thank you again for the opportunity to testify today and I 
look forward to your questions.
    Ms. Ocasio-Cortez. Thank you very much.
    The chair now recognizes Mr. Correa for five minutes of 
questioning.
    Mr. Correa. Thank you, Madam Chair.
    Admiral McAllister, again, I want to welcome you here 
today. Just returned from a trip to New Zealand and Australia 
and I am proud to report that they talked glowingly about our 
Coast Guard.
    They talked about coordinated efforts exercises and 
rescuing folks in places of the world in the sea where nobody 
has ever heard of, and you do a great job.
    And as I was mentioning earlier, in Puerto Rico I have also 
heard the same thing. You watch, you monitor areas as far as 
Venezuela for those drug interdiction and I understand you have 
been, you know, stepping all over some mini submarines lately 
full of drugs, and thank you for doing that good work as well.
    North Korea--as I mentioned, earlier, you are part of the 
enforcement of those sanctions out there, because the Navy 
can't do it and you all step up and do it. So, you do some very 
good work.
    And I am just going to put it out again, my committee is 
one of the committees that has co-jurisdiction these issues and 
I want to not have you report to us but work with you on these 
issues.
    As I mentioned earlier, I had the same challenges in--with 
the California National Guard and General Baldwin. He stepped 
up and we worked it out, and a couple of years later everybody 
was doing a very good job.
    So, if I can, I am going to ask a couple of quick questions 
of you, sir, and move on.
    As you know, earlier today the Oversight and Reform and our 
Homeland Committees released a report on the results of a 19-
month-long investigation and the report contains seven 
recommendations to help ensure that the Coast Guard conducts 
prompt, thorough, and impartial--impartial investigations of 
such allegations in the future. Trying to create some good 
policy here, sir.
    So, I am going to summarize the seven recommendations.
    No. 1, orders for investigation should identify the 
specific allegations to be investigated.
    Specific allegations be no appearance of conflict of 
interest.
    Individuals assigned to investigate should have the proper 
training.
    Guidelines should be established regarding process for 
adjudicating complaints.
    Investigative reports should meet the standards set forth 
in the Coast Guard's Administrative Investigations Manual.
    No. 6, actions that could have a chilling effect on 
complaints should be prohibited.
    And finally, the Coast Guard's anti-harassment anti-
bullying policies and procedures should be followed. They 
exist, but they should be followed.
    So, can I get a commitment from you today that the Coast 
Guard will implement these recommendations and that you--I am 
not going to say work to do it but work with us to make sure we 
get it done and make sure you continue to shine brightly 
because all the folks in the Coast Guard have earned our 
respect and admiration.
    It is a question.
    Vice Admiral McAllister. Well, Chairman, thanks very much 
for the question.
    First off, thanks for your comments about Coast Guard 
operations around the world. We are proud of what we are able 
to do alongside our DOD and international partners, and we also 
look forward to working with the committees here to enhance our 
policies and procedures.
    I did not have the opportunity before testifying here today 
to look at the details of those recommendations. But as you 
described them, sir, all of those sound reasonable.
    I certainly agree in concept with the idea of enhancing our 
policies and procedures along the lines of clearer orders to 
investigating officers. Ensuring that investigating officers 
have the appropriate training to do their work in an impartial 
manner brings integrity to the process, avoiding conflicts of 
interest.
    And so absolutely agree in concept and I look forward to 
working with the committees and we are happy to do that.
    Mr. Correa. Admiral McAllister, I am going to say once you 
have a chance to look at those, I am going to buy you lunch.
    I am going to buy your staff some lunch and let us sit down 
and work through these issues and make sure that we can comply 
with all these seven recommendations and move ahead.
    Thank you very much, and Madam Chair, I yield the remainder 
of my time.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Correa yields. The chair now recognizes Mrs. Lesko of 
Arizona.
    Mrs. Lesko. Thank you, Madam Chair, and thank you for being 
here, Vice Admiral McAllister.
    First, I would like to say how I am--again, I want to say 
how disappointed I am that we are doing this little stunt here 
with the blank chair without Admiral Schultz's name tag. I 
mean, this is like common in Judiciary Committee that the 
Democrats pulled this stunt.
    But, really, I am sure your staff has told you that the 
Coast Guard has repeatedly offered Vice Admiral McAllister to 
come and testify--he person that actually knows the facts about 
this.
    And so, again, I think it is beneath the dignity of the 
House of Representatives to keep on pulling these stunts. But I 
do have questions for you, Vice Admiral McAllister.
    First of all, the Inspector General representative that was 
here today said that the Coast Guard had completed three out of 
the four recommendations that they said to the Coast Guard and 
if I remember what he said it was a very--seemed like a very 
small thing that you hadn't done, something to the--it was this 
one, direct that the U.S. Coast Guard Civil Rights Manual be 
modified to clarify that military members who believe they are 
subject to whistleblower retaliation should file a complaint 
with DHS OIG, not the U.S. Office of Special Counsel and that 
there was some other manual that you forgot to put that in. Is 
that what you heard and are you willing to add that to the 
other manual to complete all the recommendations?
    Vice Admiral McAllister. Congresswoman, absolutely.
    So, we have actually taken all four of the OIG 
recommendations for action. We had taken action immediately 
after receiving the results of that investigation.
    The nuance here is we put out a message to every person in 
the Coast Guard saying that we had changed the policy. We 
needed to go back and update the manual that that change 
pointed to and that is in process right now and I suspect that 
that will be completed shortly. But everybody in the Coast 
Guard knows that the policy has changed, and it has in fact 
changed. So, we completed all four of the OIG recommendations.
    And, ma'am, if you don't mind, just to mention Admiral 
Schultz asked me to testify on his behalf today. As you 
mentioned earlier, not only do I oversee the Coast Guard 
Academy, I see all of our diversity and inclusion initiatives, 
all of our H.R. policies, all of the rest of our training, 
infrastructure.
    And so I appreciate the opportunity to come and talk to you 
at the level of detail that I can provide on those programs.
    Mrs. Lesko. Yes. Thank you, and I appreciate--I want to 
remind some of my Democratic colleagues, who many of them I 
know and get along with well, that it was the minority that 
invited you here.
    The majority, apparently, didn't invite you here and just 
kept on inviting Admiral Shultz, even though you are the one 
that has all the knowledge on this, which is confusing to me.
    Vice Admiral McAllister, do you believe that the issues of 
bullying and harassment are widespread within the Coast Guard?
    Vice Admiral McAllister. Congresswoman, I don't have any 
data to suggest that those are widespread issues. If there are 
people who believe and have seen that they are wider spread 
than the data that I have suggests, then I am absolutely 
interested in hearing directly from those people.
    And, you know, I would tell you the commandant and I and 
our entire senior leadership team is committed to, as I stated 
in my opening statement, creating an environment where people 
feel, one, that they can reach their potential, but two, that 
if they need to report something that they find unsatisfactory 
that they have the right outlets to do that. And so process 
integrity is important to us and you have my commitment to 
continue to ensure that we do the best we can along those 
lines.
    Mrs. Lesko. And thank you very much.
    And, again, I want to say how disappointed I am that my 
Democratic colleagues chose to publish this report or give us 
this report today and give it to the staff on Saturday and my 
understanding didn't even ask for your input on it, didn't ask, 
of course, for our input on it, and this seems to be a pattern.
    I mean, I serve on the Judiciary Committee and we get 
dumped thousands of documents on a Saturday before a Monday 
hearing. I mean, this is, in my opinion, just a total--I know 
that they are in the majority.
    I know they can do it. I know they have the votes to do 
whatever they want. But it is wrong.
    And so I yield back my time, Madam Chairman.
    Ms. Ocasio-Cortez. Thank you.
    I will recognize myself for five minutes of questions.
    On December 4, after the committees had written to the 
commandant requesting that he testify at today's hearing, the 
committees received letters from Rear Admiral Melissa Bert, the 
Coast Guard's director of Governmental and Public Affairs.
    In the letter to Chairwoman Maloney, Rear Admiral Bert 
states that you, Vice Admiral McAllister, are, quote, ``the 
most appropriate witness'' for our hearing today.
    Vice Admiral--and I would also like to take a moment to 
just thank you for coming in today. We are sincerely 
appreciative of the time that you are taking out and the effort 
that you are taking out to prepare for today's hearing.
    With that being said, could you illuminate for us what did 
Rear Admiral Bert mean when she stated that you were a more 
appropriate witness than Admiral Schultz?
    In what ways are you more qualified than the Coast Guard's 
commandant to speak about the Coast Guard's policies and 
procedures on harassment, bullying, and retaliation?
    Mr. McAllister. Madam Chairwoman, I would just offer to 
you--and I consulted with the commandant on this--as a service 
chief he has a lot of responsibilities. He has assigned me the 
responsibilities of delivering a diversity action and equity 
plan for the entire Coast Guard and for, more specifically, for 
the Coast Guard Academy.
    So, as an example, just last week, the commandant and I 
together presented our draft diversity inclusion plan for all 
of the senior leaders in the entire Coast Guard. We brought 
them all together and that was agenda item No. 1.
    And so he is absolutely committed to it. But he has got a 
lot of things that tear at his time. He has got a lot of 
strategic priorities for the service and he asked me, with my 
portfolio and with my understanding of the detailed policy and 
procedural issues, which really is, you know, the work of the 
staff, to represent him here today.
    Ms. Ocasio-Cortez. Would you be able to illuminate for us 
why the both of you could not come and it was just you?
    Mr. McAllister. Well, my understanding, and I am not sure--
I haven't laid eyes on the rule myself--but it is common 
practice within our department that I know of that we provide a 
single witness to a hearing.
    Ms. Ocasio-Cortez. I understand.
    So, I have a copy here of the Coast Guard's anti-
discrimination and anti-harassment policy statement. It is up 
there.
    Can you tell me who signed that statement?
    Mr. McAllister. That is signed by Admiral Schultz, our 
current commandant.
    Ms. Ocasio-Cortez. And here is the Coast Guard's equal 
opportunity policy statement. Can you tell me who signed that?
    Mr. McAllister. That is also signed by our commandant.
    Ms. Ocasio-Cortez. So, with utmost respect, I would have 
assumed that since the commandant signed these two policies he 
would have the most knowledge and assume the highest 
responsibility for their enforcement and implementation on how 
they work, and I think one of the questions and one of the 
concerns that we have is that it may not just be limited, you 
know, to one area.
    This is a question of the entire Coast Guard, and I am 
surprised to hear that the commandant is issuing policies that 
he is not able or willing to make time to discuss with 
Congress.
    Vice Admiral, how many times in the past has the commandant 
been invited to a congressional hearing that he has refused to 
attend?
    Mr. McAllister. Ma'am, I am not aware of any. I am happy to 
provide additional information for the record.
    Ms. Ocasio-Cortez. So, this is the first time that the 
commandant has refused to attend a congressional hearing. How 
many times in the past has the director of Governmental and 
Public Affairs responded to a request from a congressional 
committee for testimony from the commandant by telling the 
requesting committee that an officer subordinate to the 
commandant is more appropriate of a witness than the commandant 
himself?
    Mr. McAllister. I am not sure I have the full visibility on 
the correspondence back and forth from a congressional affairs 
perspective to----
    Ms. Ocasio-Cortez. I understand.
    Mr. McAllister.--answer that question.
    I will offer both the commandant and I have only been our 
positions for about 18 months now. So, that is the window that 
I can use to judge for you.
    Ms. Ocasio-Cortez. I completely understand and I thank you.
    But I do think it is important to assert that this may be 
unprecedented at least in recent history for a commandant to 
refuse to attend a congressional hearing and that refusal today 
is disappointing to this committee and it is--it only seems 
to--from what we can infer, that lack of presence seems to 
essentially suggest that and reaffirm about the command 
environment in which Lieutenant Commander Young-McLear suffered 
and perhaps has suffered retaliation for making allegations of 
harassment and bullying, and I think that that is what that 
absence here today is difficult for us to square.
    But, once again, I want to state my gratitude for you 
coming here today and it is in no means a respect--a disrespect 
to you or your service, and I thank you for you taking the time 
to testify today. I thank you very much.
    The chair now recognizes Mr. Roy of Texas.
    Mr. Roy. I thank the chairwoman.
    Vice Admiral McAllister, do you have complete knowledge of 
what is going on at the Academy? Are you in charge of what is 
happening at the Academy?
    Mr. McAllister. I am, sir. I am in the chain of command. I 
supervise the superintendent of the Coast Guard Academy who 
runs the Academy on a day-to-day basis.
    Mr. Roy. So, you are fully knowledgeable and fully able to 
answer these questions as vice admiral?
    Mr. McAllister. I believe I am. Yes, sir.
    Mr. Roy. Could you give me a little bit of your background? 
How long have you been in the United States Coast Guard and 
your education, training, and so forth?
    Mr. McAllister. Sir, I have been in the Coast Guard for 
going on 34 years. I am a graduate of the United States Coast 
Guard Academy.
    I have both operated all around the Coast Guard and I have 
been in the support worlds, the engineering worlds, the H.R. 
worlds, the budget worlds, and so forth.
    From an educational standpoint, received Master's degrees 
in civil engineering and a Master's in business administration, 
and a graduate of a variety of executive education 
opportunities.
    Mr. Roy. Safe to say that you are proud of the United 
States Coast Guard?
    Mr. McAllister. I am very proud of our organization, and as 
was introduced in some of the opening comments, I think we have 
an outsized impact for, you know, against the size of our 
service.
    Mr. Roy. Safe to say you are proud of the United States 
Coast Guard Academy and being a graduate of that institution?
    Mr. McAllister. I am. We are always looking for ways to 
improve, though, and I recognize that in some cases we need to 
do that.
    Mr. Roy. What are the primary missions of the Coast Guard?
    Mr. McAllister. Well, sir, I know you are familiar with 
some of our missions including interdicting drugs and 
transnational organized crime.
    We have had a banner year last year, seizing 208 metric 
tons of cocaine, which is more cocaine than all other U.S. law 
enforcement agencies combined. We have saved thousands of 
lives, maintain our Nation's waterways, facilitate extremely 
important commerce into and out of our ports.
    And so a variety of different missions that we are carrying 
out simultaneously, literally around the world every day.
    Mr. Roy. The United States has 95,000 miles of coastline, 
360 seaports, 3,700 Marine terminals, and 25,000 miles of 
waterways. Does that sound about right to you?
    Mr. McAllister. That is correct, sir. It is about a $5.4 
trillion a year maritime commerce system.
    Mr. Roy. You mentioned drug interdiction. You talked about 
the tons of cocaine with a street value--I mean, 2017 223 
metric tons with a street value of $6.6 billion. 2017, the 
Coast Guard also detained 708 suspected drug smugglers. Does 
that all sound right to you?
    Mr. McAllister. Yes, sir. It does. And about two-thirds of 
those drug smugglers are brought back here to the U.S. for 
prosecution, which allows us to find other drug smugglers.
    Mr. Roy. Another staggering statistic--you mentioned saving 
lives. 2017, the Coast Guard saved 4,228 lives, conducted 
16,000 search and rescue operations consisting of nearly 12,000 
people during hurricanes.
    It is clear the Coast Guard plays an important role in 
keeping the Nation's borders and citizens safe. We could go 
through all of those wonderful accomplishments.
    How many members active--are active in the United States 
Coast Guard right now, roughly?
    Mr. McAllister. Sir, we have about 43,000 active duty 
members.
    Mr. Roy. And how many students are there at the Academy 
currently, or in a class?
    Mr. McAllister. Approximately 1,000 cadets, sir.
    Mr. Roy. OK. And you responded to my colleague just a 
minute ago who asked a question about whether you believe that 
the kinds of harassment and bullying that is the subject of 
this hearing is prevalent throughout the Academy or the Coast 
Guard.
    Is it safe to say that of those 43,000 or the rough number 
that you said of the members of the United States Coast Guard, 
the thousand at the Academy, do you have any idea of the rough 
number of cases of harassment or bullying that have been 
reported and moved up the chain? So, some rough knowledge of 
the state of that?
    Mr. McAllister. Yes, sir. I can give you some rough 
numbers.
    We receive, to my understanding, about 250 EEO complaints a 
year. We actually beat the Federal averages and are at the top 
of the DHS in terms of timeliness of resolving those issues, 
resolving those issues at the lowest level possible and of 
using mediation to achieve that.
    On the anti-harassment and hate incident side, we also 
receive about 250 of those types of cases a year and about a 
third of those--well, all of those are investigated immediately 
and about a third of those have resulted in action, everywhere 
from verbal counseling to removal of duties.
    So, it is a system that is relatively mature, although we 
would like to process it in place, and I would argue, working 
to some level today.
    Mr. Roy. I am aware that there are other places where the 
Coast Guard has voluntarily or chosen itself to lead. For 
example, ensuring equitable outcomes for all cadets in the U.S. 
Coast Guard Academy has been a strategic priority since 2013. 
Is that correct?
    Mr. McAllister. That is correct, sir.
    Mr. Roy. And when did the Coast Guard determine that there 
was an issue with equitable outcomes for the Academy and how 
did you identify it?
    And I am running of time, but if you could just give a 
little bit of background here for the committee on how you all 
took action to deal with some of those issues yourselves as the 
United States Coast Guard to address those.
    Mr. McAllister. So, we were the first service academy to go 
through the equity scorecard process, again, under the--with 
the help of the University of Southern California, and that was 
in 2017 and that just gives you a snapshot of where there may 
be or there are inequities in outcomes across different 
dimensions--academics, military, athletics, and overall.
    And it is now the work of the equity task force that was 
mentioned in the previous panel to identify the root causes of 
those issues and to do the things that need to be done to 
create more equitable outcomes as a result of that.
    And there is a long list of things that we are doing right 
now with some of the people who are sitting behind me from the 
Coast Guard Academy involved to enhance things like our 
teaching methods, our mentoring programs, senior leadership, 
understanding of climate-related issues and those sorts of 
things.
    Mr. Roy. Thank you, Vice Admiral McAllister, and thank you 
for your service to our country.
    Ms. Ocasio-Cortez. Thank you.
    The chair now recognizes Mr. Thompson, the chairman of the 
Committee on Homeland Security.
    Chairman Thompson. Thank you very much, Madam Chair.
    Vice Commander, glad to see you. I want to make sure that, 
on the majority side, we think the buck stops with the 
commandant, and that is why he was invited.
    The fact that in your testimony you made a number of 
references to the commandant and so we would assume, and 
rightfully so, that he is the person.
    But as a person tasked with the responsibility of coming, 
you don't have a choice. So, we thank you and your record 
speaks for itself.
    With respect to our whistleblower, did you have anything to 
do with any processing or reviewing of any of her complaint?
    Mr. McAllister. Sir, I did not have any kind of firsthand 
involvement in that. All of the investigations except for the 
OIG whistleblower investigation were completed before I got 
into my current position.
    I did receive the results of that OIG report and helped 
craft the actions that the Coast Guard was going to take in 
response to that report. That is my only involvement thus far.
    Chairman Thompson. Well, thank you.
    Some of us have asked the question now that the appearance 
of the lieutenant commander being mistreated by people in the 
Academy, we are concerned that, as far as we know, no 
disciplinary action has been taken toward any of the people who 
are at fault.
    Are you aware of any disciplinary action taken?
    Mr. McAllister. Chairman, I will offer we ended up taking 
administrative action against one of the individuals involved.
    Now, it was more directly related to another incident of 
bullying where we found that bullying had occurred, and so we 
removed that officer from their primary duties, reassigned that 
officer, and that officer ultimately voluntarily retired rather 
than face the additional administrative actions that would have 
been a result of that.
    And I say that because his removal was based on what we 
call a loss of confidence by the Coast Guard Academy 
leadership, and it would have included the totality of the 
circumstances in terms of his actions in his position, 
including those that the earlier panel identified in making 
that determination.
    Chairman Thompson. Thank you.
    You know, one of the hallmarks of a policy is how much of 
an enforcement mechanism you put in place behind it. What is 
the current enforcement mechanism subject to the IG's 
recommendation that is available for bullying, harassment, or 
retaliation?
    Mr. McAllister. Sir, so there are a couple different 
processes involved there, particularly for harassment.
    You can go either through the EEO process or through the 
administrative process, the anti-harassment hate incident 
process. For any of those, if it is severe enough you can go 
through a criminal process as well--criminal investigation.
    But those are the processes that have been in place for a 
while. I would offer to you--to your question about the recent 
changes that we made as a result of the OIG report, those are 
recent changes and we haven't yet seen all of the positive 
things that will come from that.
    I would tell you our work is incomplete there. There were 
some suggestions earlier made about improper communications 
between officials that were engaged in this process.
    Those communications were not prohibited under our old 
policy. I would offer they are--now that we have raised our 
standards for our policies and procedures in terms of the 
discretion and the confidentiality of those communications, you 
will see less of that, and there is opportunity for us to be 
more specific in what those prohibitions look like to ensure we 
have it.
    Chairman Thompson. So, you do understand the challenge that 
a cadet might have in the fact that you have a policy with no 
teeth and a reluctance to move forward with a complaint because 
the perception is that nothing will be done.
    And I am saying that to say I encourage you to make sure 
that you go back to the commandant and express that a zero-
tolerance policy on this would be absolutely necessary to also 
have some penalty and enforcement mechanism.
    A couple of other items, Madam Chair, if I might.
    You know, we went through quite an extensive effort to get 
information. Are you aware of all these committees had to go 
through to get basic information?
    Mr. McAllister. Yes, sir. I am.
    Chairman Thompson. Are you comfortable that the Coast Guard 
did not impede the committee's right to certain information?
    Mr. McAllister. Chairman, I would offer to you it was 
certainly our intent to be responsive and transparent. There 
were a lot of processes that we were required to follow--Coast 
Guard, DHS, DOJ processes in terms of redactions and those 
sorts of things. I can certainly understand the committee's 
frustration with that.
    I would offer we also have done 37 hours of briefings and 
interviews to supplement all of the record material--the 10,000 
pages of record material.
    So, I am hopeful that the committee found that at the end 
of the day they had everything they needed to make appropriate 
judgments.
    Ms. Ocasio-Cortez. Gentleman's time has expired.
    The chair now recognizes Mrs. Watson Coleman of New Jersey.
    Mrs. Watson Coleman. Thank you, Madam Chair.
    Vice Admiral, thank you for being here, and let me 
associate myself with all the good things that my colleagues 
have said about the work that the Coast Guard does in keeping 
us safe, keeping our waterways safe, finding drugs that should 
never get to our communities, and saving lives. You do a 
remarkable job and we are grateful.
    But I need to talk to you about the sort of administrative 
aspects of the--of the Coast Guard, including the Academy.
    A couple of things. No. 1 is, what--did you work in this 
area prior to your recent appointment? Where were you during 
the period of time that the lieutenant commander's complaints 
were being addressed or not addressed? What space were you 
working in?
    Mr. McAllister. I was not directly involved, Congresswoman. 
I was the regional commander for the Arctic and Alaska, and I 
was the deputy director of operations for the U.S. Northern 
Command----
    Mrs. Watson Coleman. U.S. what?
    Mr. McAllister. For the U.S. Northern Command.
    Mrs. Watson Coleman. OK. So, you weren't even on the scene, 
so to speak?
    Mr. McAllister. I was not, ma'am.
    Mrs. Watson Coleman. OK. I want to go over that case with 
you a little bit then, if you don't mind.
    After the lieutenant commander raised complaints of 
harassment and a hostile work environment based in part on her 
race, her gender, and sexual orientation, the Coast Guard 
attempted to address them through preliminary inquiry.
    The preliminary inquiry determined that a full 
investigation should be conducted. So, it would seem that the 
logical next step would have been for leadership to order that 
full investigation.
    It seems simple, but instead the assistant superintendent 
of the Academy ordered a general climate and cultural survey of 
the department, chose an unqualified investigator from the 
information we have to conduct it, and specifically told the 
investigator not to investigate the allegations.
    The investigator actually told the committee staff that he 
was, and I quote, ``expressly asked not to look at any 
individual.'' He was not even made aware of the lieutenant 
commander's specific allegations until he spoke with her as the 
very last person he surveyed.
    It would seem, actually, the process didn't break down but, 
rather, that it was purposefully subverted. The assistant 
superintendent was presented with credible allegations of 
harassment and took no steps to ensure that they were 
investigated appropriately.
    So then, Vice Admiral, let me ask you a question on this. I 
need to understand is this a cover up?
    Mr. McAllister. Congresswoman, it is not.
    Mrs. Watson Coleman. It is not a cover up? Is it a sweeping 
of things under the rug? What exactly is it?
    How could this have consistently happened over the last 
couple of years with people at such high levels knowing better 
or should know better?
    Mr. McAllister. So, if I may, the preliminary inquiry that 
is described is actually an administrative investigation.
    That is merely the form in which the results are delivered. 
The recommendations from that preliminary inquiry were to do a 
broader investigation----
    Mrs. Watson Coleman. Right.
    Mr. McAllister.--of the entire department, which was 
ordered and done and was done in an investigation format. I 
have seen that investigation myself. It was accompanied by----
    Mrs. Watson Coleman. Are you saying that the information I 
have here, that the request for the investigation was denied, 
is inaccurate?
    Mr. McAllister. An investigation was ordered and done, 
ma'am.
    Mrs. Watson Coleman. When? In relationship to this first 
part, when was that--when did that happen? Was there a period 
of time where the investigation was recommended and the 
assistant superintendent did not do it?
    Mr. McAllister. No. The----
    Mrs. Watson Coleman. Or did not order it?
    Mr. McAllister.--the investigation was recommended by the 
dean and the assistant superintendent ordered the conduct of 
that investigation.
    Mrs. Watson Coleman. Was the dean the investigator who made 
the recommendations?
    Mr. McAllister. The dean was the investigator of the 
first--was not the--I am sorry.
    Mrs. Watson Coleman. And he made the--what?
    Mr. McAllister. To be clear, he was not the investigator 
but he was the convening authority for the first investigation.
    Mrs. Watson Coleman. Was there a period of time where there 
was the preliminary investigation a recommendation for a more 
thorough investigation and a declining on the part of 
administration to move forward with that comprehensive 
investigation at that time? That is my question.
    Mr. McAllister. No, there was no declination of the need to 
do a second administrative investigation.
    Mrs. Watson Coleman. OK. If that was the case, why did it 
take so doggone long to come to any conclusions as it relates 
to the lieutenant commander's allegations?
    Mr. McAllister. It took approximately--it took 
approximately 30 days, which is our standard for the first 
investigation.
    Mrs. Watson Coleman. I think we are talking a couple of 
years.
    Mr. McAllister. And it took approximately 30 days for the 
second investigation.
    Now, I am not holding these investigations up as the model. 
There were issues in those investigations in terms of the lack 
of detail on what those investigations should include, the form 
in which those investigations were provided.
    So, this is not--I mean, this was not the experience that 
everybody gets----
    Mrs. Watson Coleman. Thank you, Vice Admiral. I have been--
I have heard this, which means that my time is up.
    I think that my concern is that the climate and culture 
investigation didn't examine the specific allegations and that 
in and of itself is troubling to me because it seems to me that 
there was an intentional subversion of what should have been 
the right thing to do.
    Thank you for coming, and thank you for your indulgence, 
Madam Chair.
    Oh, Mr. Chair.
    Mr. Clay.
    [Presiding.] And we thank the gentlewoman from New Jersey 
for yielding back.
    And I recognize the gentleman from Connecticut, Mr. 
Courtney, for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you, 
Admiral, for being here today.
    I just returned from a CODEL from Norway and Iceland, which 
was supposed to be Navy focused and I just want to share with 
you that we spent most of the time talking to both their 
respective navies about the great collaboration with the Coast 
Guard, which includes, by the way, the Academy, since there is 
a pretty robust foreign exchange program, which, again, deepens 
that interoperability. So, you know, congratulations on your 
great work up there.
    I wanted to go back to your comments about the 
administrative action which was taken regarding the department 
head.
    Again, just, I mean, I am sure you read the Inspector 
General's report that there is Page 19 recent developments 
which, again, goes through the second complaint and the fact 
that, you know, really within a pretty short period of time--it 
was about three months--the Academy removed that individual.
    Again, I just want to clarify and at least put on the 
record that this is the same individual for whom the IG report 
identified as, you know, the actor who changed the rating for 
Lieutenant Commander Young-McLear, which was, again, on Page 26 
and talked about how, again, they took her score down below 
six. They actually were talking about bringing it down to four.
    And so when you indicated that it is the totality of the 
circumstances led to that decision for removal, again, I just 
want to get some feedback that at least, you know, the actions 
that the IG reported as retaliatory is part of that totality of 
circumstances?
    Mr. McAllister. Congressman, it is fair to say we were 
aware of what the OIG report said. It was released earlier. No, 
actually, I take that back. I am confusing my time line a 
little bit.
    The event that most precipitated that administrative action 
of removal of that particular person really was an unrelated 
event.
    But the way I described it was when somebody is removed of 
their primary duties for loss of confidence, that considers all 
of the events that may have happened in the past.
    And, again, it is not a disciplinary--a disciplinary action 
under the Uniform Code of Military Justice but it has very 
significant consequences and it is up to the chain of command 
to take that action, and they did in this case.
    Mr. Courtney. Well, I was trying to give you a lifeline, 
Admiral, in terms of just trying to show that at least there 
was some recognition about Lieutenant Commander Young-McLear's 
experience with this individual--that it had some ripple effect 
in terms of, you know, the second incident in the 
administrative action that you described.
    So, the other point I just wanted to sort of walk through 
with you is the IG report talked, again, about the 
confidentiality issues, which they described in pretty vivid 
detail about the fact that Lieutenant Commander Young-McLear's 
complaint was announced before a staff meeting, that it was 
discussed in the gym, in emails, and they determined that it 
was likely a violation of the manual.
    That was one of the four recommendations that they said 
that, you know, you guys--the Academy has to tighten up.
    Can you, like, just walk through a little bit in more 
detail, like, how you are going to make sure that that type of, 
you know, very, you know, reckless almost behavior is not going 
to occur again?
    Mr. McAllister. Congressman, thanks for the question.
    At the time, I would offer to you, that was not either 
allowed or prohibited. It was not--we didn't indicate in our 
policy who could or couldn't be discussed.
    But I share with you your concern that just from a 
judgmental standpoint that was probably not the right behavior.
    And so we have done the initials steps of laying out the--
our expectations for increased sensitivity and confidentiality 
of these cases while they are being adjudicated and I think we 
will have an opportunity to expand upon that, you know, based 
on what the committee here has suggested in terms of detailed 
activity.
    So, there is certainly room for improvement there.
    Mr. Courtney. Well, again, I think that goes to the core 
of, you know, the whistleblower process and the complaint 
process is protecting people's confidentiality because it can 
be toxic if it just sort of gets out there in the blood stream.
    You know, the last point--and I raised this in the first 
panel is that, you know, I have visited the Academy. Again, the 
self-reporting, which is what the equity scorecard was, 
certainly deserves credit.
    It did not go through the whole institution, as the 
lieutenant commander noted, and so there is still a little meat 
left on the bone there in terms of, you know, trying to address 
this overall issue.
    In the initiatives that are taking place in terms of some 
of the task forces, again, I have been briefed on that in 
person in New London.
    I was a little disappointed that the engineering 
department's initiative wasn't included in your testimony and I 
just hope to, you know, hear from you the fact that that is 
really a promising initiative which, as I said, is really 
organic.
    It is happening, you know, really self-initiated and which 
is a healthy response. I just wondered if you could comment.
    Mr. McAllister. Congressman, I am absolutely willing to 
take that onboard and, you know, I would offer I am very much 
encouraged and I knew that it was happening that Lieutenant 
Commander Young-McLear is still very much involved in helping 
us to solve the issues that I know we have as an organization 
in terms of how to improve our diversity, inclusion, 
inclusiveness.
    And so, you know, the continued engagement she has--I know 
she was at a workshop recently looking at our culture of 
respect across not just harassment and bullying and other 
things but sexual assault and some of the other concerning 
behaviors that we are focused on at the same time.
    So, that is the kind of engagement I think that will help 
us to really leapfrog ahead in terms of these policies, 
procedures, and the environment or the culture that is, you 
know, a result of those things that I think we can improve 
upon.
    But you absolutely have my commitment to take what the 
Academy is doing and particularly the engineering work and 
continue to focus on that and make sure that we get the right 
equitable outcomes at the end of these processes.
    Mr. Clay. The gentleman's time----
    Mr. Courtney. Mr. Chairman, if I could just one--I just 
appreciate the fact that you did, you know, give Lieutenant 
Commander a shout out for her continuing work.
    And with that, I yield back.
    Mr. Clay. The gentleman's time has expired.
    The gentlewoman from West Virginia, Mrs. Miller, is 
recognized for five minutes.
    Mrs. Miller. Thank you, Mr. Chair.
    And I do want to thank Lieutenant Young-McLear for 
testifying in our first panel and to you, Vice Admiral 
McAllister, for answering all of our questions.
    I also, of course, want to thank you all for your service 
to our country.
    I also want to commend the Coast Guard for the very 
important work you do in protecting American interests at home 
and abroad, serving every day to keep Americans safe.
    I especially want to highlight the role that the Coast 
Guard plays in my district in southern West Virginia, providing 
the vital search and rescue missions during our flooding and 
extreme weather.
    I also want to highlight the important job that the Coast 
Guard plays in drug interdiction in the Gulf of Mexico where 
each year they intercept billions of dollars worth of illegal 
drugs and detain hundreds of drug dealers. Thank you.
    The Coast Guard Academy is essential for the continued 
success of our Coast Guard. Allegations of abuse and harassment 
are extremely worrying to me and, I am sure, to every member of 
this committee.
    It is essential that our academies operate at the very best 
level to produce the Coast Guard service members that will 
serve our next generation of Americans.
    How does the Academy prepare their cadets to be future 
leaders of the Coast Guard and as Americans?
    Mr. McAllister. Congresswoman, thanks for the question.
    So, the goal of the Academy is to graduate leaders of 
character and so from the day they show up at the Coast Guard 
Academy it is a immersive environment that focuses not only on 
the academics that you would expect from a four-year 
educational institution but the military, the enculturation, 
and to our core values of honor, respect, and devotion to duty, 
the athletics. And so we are trying to create whole people, and 
we do that in an environment that really does.
    We intend to focus on diversity and inclusion and so when 
they graduate those officers and they hit the fleet, they are 
leading, you know, kind of a new generation of, I would say, 
emotional intelligence or inclusion intelligence and leadership 
capabilities that I think ultimately will have a generational 
and significant impact on the entire Coast Guard.
    Because the Academy leads in so many of these ways as the 
results to diversity, inclusion, and equity, they are ahead of 
the rest of the fleet right now and part of my job is to make 
sure the rest of the fleet keeps up.
    Mrs. Miller. How can Congress help better equip the Coast 
Guard Academy to help cadets be even more successful in the 
future?
    Mr. McAllister. Well, thank you for that question as well.
    In my opening remarks, I mentioned the Board of Visitors, 
which we have reinstituted, so that is members of both--senior 
members of both the administration and Congress who can provide 
oversight to the Coast Guard Academy and overseeing the equity 
task force and the results that are coming from that I think 
would be, you know, valuable focus.
    And as the commandant has testified to on a number of 
occasions, more broadly, about the Coast Guard, we get 
fantastic support from Congress.
    But I think the superintendent would tell you it is harder 
and harder to run an institution where he is attracting the 
best and brightest across this entire nation to come and be a 
cadet when our budgets have been flat-lined over time, which, 
in real terms, means that he is doing--trying to deliver more 
with less resources to do that and that is a challenge for our 
entire service.
    Mrs. Miller. Mr. Chairman, is my time expired?
    Mr. Courtney.
    [Presiding.] I will give you another minute if you want.
    Mrs. Miller. OK, because it just seemed like it went 
backward.
    Mr. Courtney. Yes.
    Mrs. Miller. OK. Thank you.
    Do you believe that the current procedures the Coast Guard 
has in place are adequate and fairly--to fairly investigate and 
adjudicate complaints of harassments and discrimination?
    Mr. McAllister. Congresswoman, certainly, the cases that we 
are talking about here have uncovered weaknesses in those 
policies and procedures that we have begun to get after and 
will continue to do so.
    Ultimately, I think the processes are minimally acceptable. 
They have been--they have been working for us, by and large, 
with notable exceptions. We can certainly do better. We reserve 
the right to do better here.
    Mrs. Miller. And has the equity task force made a concrete 
difference in the culture of the Coast Guard Academy?
    Mr. McAllister. I certainly believe they will. I think 
there is a lot of enthusiasm at the Academy about taking the 
Vital Signs report, which is really just kind of a snapshot in 
time and putting action behind it to close those equity gaps.
    You know, I would offer to you there is a variety of things 
going on there, some of which are in that equity task force and 
some are not.
    As an example, we recently changed the way that we hire or 
that we advertise for civilian faculty positions which, 
frankly, we hope will attract a large number of 
underrepresented minorities to those positions.
    We have already got the most diverse staff that we have had 
in Academy history but there we can do better as well.
    And then, you know, from a cadet perspective things like 
setting up the minority outreach recruiting team, which is 
really kind of a mentoring program at its heart; the Center for 
Inclusive Learning and Teaching, which retrains instructors on 
how to teach and to professionally develop cadets so that they 
can achieve their highest possible potential while at the Coast 
Guard Academy; sending all of our senior leaders to diversity 
and inclusion training and then having them go out in small 
groups throughout the Academy community, having important 
discussions about things like hidden biases and how we can 
overcome those.
    These are all pretty exciting things and I am confident 
that we will continue to build an even more inclusive 
environment at the Academy. But there is still--we are still 
kind of nascent in this process and, you know, it bears 
continued watching and engagement and we plan to do that.
    I would offer to you we have by far the most diverse 
military academy of any of the services out there and, you 
know, we can take that as a mark of partial success but we 
would like to do more and all of these efforts are kind of 
geared toward that.
    Mrs. Miller. Thank you.
    I yield back my time.
    Mr. Courtney. Thank you.
    And this--we are done. So, I would just like to thank our 
witnesses for their testimony today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair which will be forwarded to the 
witness for responses.
    I ask our witnesses to please respond as promptly as you 
are able.
    The hearing is adjourned.
    [Whereupon, at 1:21 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
